<html>
<title> - THE REPORT OF THE CONGRESSIONAL COMMISSION ON THE STRATEGIC POSTURE OF THE UNITED STATES</title>
<body><pre>[Senate Hearing 111-218]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-218
 
THE REPORT OF THE CONGRESSIONAL COMMISSION ON THE STRATEGIC POSTURE OF 
                           THE UNITED STATES
=======================================================================



                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 7, 2009

                               __________

         Printed for the use of the Committee on Armed Services




                  U.S. GOVERNMENT PRINTING OFFICE
54-357                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JEFF SESSIONS, Alabama
JACK REED, Rhode Island              SAXBY CHAMBLISS, Georgia
DANIEL K. AKAKA, Hawaii              LINDSEY GRAHAM, South Carolina
BILL NELSON, Florida                 JOHN THUNE, South Dakota
E. BENJAMIN NELSON, Nebraska         MEL MARTINEZ, Florida
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   RICHARD BURR, North Carolina
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
MARK UDALL, Colorado                 SUSAN M. COLLINS, Maine
KAY R. HAGAN, North Carolina
MARK BEGICH, Alaska
ROLAND W. BURRIS, Illinois

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

The Report of the Congressional Commission on the Strategic Posture of 
                           the United States

                              may 7, 2009

                                                                   Page

Perry, Dr. William J., Chairman, Congressional Commission on the 
  Strategic Posture of the United States.........................     4
Schlesinger, Dr. James R., Vice Chairman, Congressional 
  Commission on the Strategic Posture of the United States; 
  Accompanied by Senator John Glenn, Dr. Harry Cartland, and Dr. 
  John Foster....................................................    11

                                 (iii)


THE REPORT OF THE CONGRESSIONAL COMMISSION ON THE STRATEGIC POSTURE OF 
                           THE UNITED STATES

                              ----------                              


                         THURSDAY, MAY 7, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pusuant to notice, at 9:36 a.m., in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, E. 
Benjamin Nelson, Udall, Hagan, Begich, Burris, McCain, Inhofe, 
Sessions, Thune, Martinez, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; Leah C. Brewer, nominations and hearings clerk; and 
Paul J. Hubbard, receptionist.
    Majority staff members present: Madelyn R. Creedon, 
counsel; and Richard W. Fieldhouse, professional staff member.
    Minority staff members present: Richard H. Fontaine, Jr., 
deputy Republican staff director; Michael V. Kostiw, 
professional staff member; Daniel A. Lerner, professional staff 
member; and Dana W. White, professional staff member.
    Staff assistants present: Kevin A. Cronin, Mary C. 
Holloway, Jessica L. Kingston, and Brian F. Sebold.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Christopher Caple, assistant to 
Senator Bill Nelson; Gordon I. Peterson, assistant to Senator 
Webb; Jennifer Barrett, assistant to Senator Udall; Roger Pena, 
assistant to Senator Hagan; Gerald Thomas, assistant to Senator 
Burris; Anthony J. Lazarski, assistant to Senator Inhofe; Rob 
Soofer, assistant to Senator Inhofe; Lenwood Landrum and Sandra 
Luff, assistants to Senator Sessions; Brian W. Walsh, assistant 
to Senator Martinez; and Chip Kennett, assistant to Senator 
Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. First, let me 
welcome our Commission, Dr. Perry, Dr. Schlesinger, Chairman 
and Vice Chairman, John Glenn, a dear and old friend of ours, 
Dr. Foster, Dr. Cartland. We welcome you all. We thank you for 
your wonderful service. Many of you are old friends and have 
been before us, served with us, in the case of Senator Glenn 
for many, many years, and so this is a homecoming in a sense, a 
little bit of a reunion. I hated to bang the gavel. We're 
having some reminisces going on. But we must get on with our 
work because we have a bill on the Senate Floor and that means 
I'm going to have to leave at 10:30 a.m.
    I know that Senator McCain probably will want to be there, 
as well. He's been a total partner on a bill that we have on 
the Senate floor. This is going to be a bit hurried for the two 
of us and maybe others, as well, but you're used to that.
    The Congressional Commission on the Strategic Posture of 
the United States was established by the National Defense 
Authorization Act for Fiscal Year 2008 to examine 
recommendations with respect to the long-term strategic posture 
of the United States.
    Over the course of the last several years, there's been 
much debate and discussion about the future of nuclear weapons 
but there's been a lack of a coherent plan or policy. For the 
most part, the debates here in Congress center on specific 
programs, such as low-yield nuclear weapons, the mini-nukes, 
the robust nuclear earth-penetrator, the reliable replacement 
warhead.
    Then in September 2007, when the Air Force unknowingly flew 
nuclear weapons across the country and then later on when the 
Air Force discovered it had unknowingly shipped 
intercontinental ballistic missile (ICBM) nose cones to Taiwan, 
nuclear matters became the source of public discussion again 
and the cause for dismissal, in fact, of the Secretary and 
Chief of Staff of the Air Force.
    Various reviews and reports in the months following those 
events disclosed additional problems and issues within the 
nuclear enterprise.
    The conclusions in these reports demonstrate that the 
uncertainty and confusion in U.S. nuclear policy was a major 
source of the chaos in the nuclear enterprise. All of these 
events led in turn to the erosion of the funding, to 
conflicting direction, and to the general breakdown of 
consensus that had generally existed for the first decade of 
the Stockpile Stewardship Program (SSP).
    The task before this Commission was to examine all elements 
of the nuclear enterprise and nuclear policy, to make 
recommendations as appropriate and to determine where there is 
and is not consensus on these important matters.
    The Commission's report contains 11 separate discussion 
topics and 100 recommendations. Some will have very broad 
support, such as the conclusion that the United States must 
lead international efforts to prevent the proliferation of 
nuclear weapons and reduce the number of nuclear weapons 
worldwide. Other conclusions will need more discussion and 
review and have less consensus behind them perhaps.
    An overarching finding of the report is that the United 
States has an opportunity and there's urgency to reengage with 
the international community by seeking international solutions 
to the problems of nuclear proliferation and nuclear threats.
    Our committee thanks you all for your extraordinarily hard 
work. The staff, the working group members, all of you, we're 
grateful to all of you for this report, and together with the 
Nuclear Posture Review (NPR), this report should help to 
restore clarity and hopefully consensus to U.S. nuclear policy.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I want to again 
echo your sentiments about our witnesses today who we've had 
the opportunity to work with and to serve with for many years 
and through many contributions to the security of this Nation. 
Thank you, Dr. Schlesinger, Dr. Perry, Senator Glenn, Dr. 
Cartland, and Dr. Foster. Thank you all for being here and 
thank you for this latest contribution you've made in helping 
us ensure the future security of this Nation.
    This Congressional Commission on the Strategic Posture 
report both addresses many of the complexities we face in the 
world today and plays an important role in fostering a national 
bipartisan discussion on the current state and path forward of 
our strategic deterrent.
    This report takes an important look at the steps needed to 
make sure that our deterrent remains credible and that our 
nuclear infrastructure remains viable. It addresses missile 
defense as well as the path forward for reenergizing our 
nonproliferation efforts.
    The work of this Commission will likely influence the 
upcoming NPR as well as congressional consideration of 
strategic issues over the next few years. It will also play an 
important role as the United States formulates its approach to 
discussions about the future of the Strategic Arms Reduction 
Treaty (START) which will expire at the end of this year.
    As we move through these steps, it's imperative that we 
move to reduce the size of our nuclear arsenal to the lowest 
levels possible, while at the same time taking the appropriate 
steps to ensure that our nuclear deterrent remains safe and 
reliable.
    In addition, we must maintain our focus on developing a 
robust missile defense system and superior conventional forces 
capable of defending both the United States and our allies.
    As we all know, there are significant hurdles before us, 
including the North Korean and Iranian nuclear programs, 
ensuring that nuclear weapons remain out of the hands of 
terrorists, and strengthening the international will of imposed 
sanctions towards those who seek to proliferate nuclear arms.
    We should begin a dialogue with China to encourage its 
conformity with the practices of the other foreign nuclear 
weapon states recognized in the Nuclear Nonpoliferation Treaty 
(NPT) and work with Russia to build confidence in our missile 
defense program.
    Among the other steps we must take, I agree in principle 
with a number of the recommendations outlined in the report 
that we're here today to discuss.
    Above all, it is imperative that America lead by example. 
Our leadership on strategic issues is as vital today as it was 
during the Cold War.
    Internationally, reports from Pakistan are a major cause 
for concern. With the Taliban only 60 miles outside of 
Islamabad, the prospect of an insecure Pakistani nuclear 
arsenal poses a grave threat to our national security. We must 
do whatever it takes to ensure that Pakistan is able to secure 
its nuclear assets, and I look forward to hearing the panel's 
views on this matter.
    As for missile defense, early last month Secretary Gates 
announced the transition in focus to the theater missile threat 
posed by rogue states. I have some concerns with the proposed 
$1.4 billion overall reduction in funding and I look forward to 
hearing from our Commission about Secretary Gates' proposal and 
how the changes he has outlined could affect the important role 
missile defense plays in our strategic posture.
    For too long Congress has avoided serious debate on 
significant strategic force issues. I thank the members of this 
Commission for their thoughtful assessments and recommendations 
and I look forward to today's hearing and working with you to 
address the future of our strategic posture and our shared 
desire to reduce the danger of nuclear weapons being used.
    I thank you, Mr. Chairman, and I do apologize to the 
witnesses. We are on the floor at 10:30 a.m. with our first 
real serious attempt in some time in bringing the cost overruns 
of our defense systems under control.
    I thank you, Mr. Chairman. I thank the witnesses.
    Chairman Levin. Thank you, Senator McCain.
    Dr. Perry, let's start with you.

  STATEMENT OF DR. WILLIAM J. PERRY, CHAIRMAN, CONGRESSIONAL 
    COMMISSION ON THE STRATEGIC POSTURE OF THE UNITED STATES

    Dr. Perry. Thank you, Mr. Chairman.
    Very early in our deliberations, we met with Senator 
Sessions and he urged us to come up with a consensus report. He 
said, ``A consensus report would have a much greater weight 
with the Senate than anything else we'd come up with.'' At the 
time, I said, ``Easy for you to say.'' [Laughter.]
    But we gave it our best shot and with one exception this 
report is a consensus report and that was no small effort to 
achieve.
    Chairman Levin. Senator Sessions was right. It does have 
greater power when you're able to do that and we congratulate 
you for it.
    Dr. Perry. We have, as you pointed out, 100 different 
recommendations in this report. I do not propose to review all 
those with you. I do have written testimony which I would like 
to submit for the record.
    Chairman Levin. It will be part of the record.
    Dr. Perry. My comments then are going to be focused on 
briefly relating the major findings in this report. The 
strategic policies of the administration as it goes into 
office. These policies will no doubt evolve as the 
administration does their own NPR, but I'm relating these 
policies to the going-in policies, articulated by President 
Obama in his speech in Prague.
    First of all, he said, ``The nation faces a new threat, 
nuclear proliferation and nuclear terrorism, but besides that, 
it needs to hedge against the possible resurgence of the old 
threat.'' One statement of policy. This Commission agrees with 
that statement.
    Second, he had said, ``NPT is critical to dealing with this 
new threat. The United States should work to strengthen the NPT 
and, in particular, should commit more resources to the 
International Atomic Energy Agency.'' This Commission agrees 
with that finding.
    Third, he said, ``The success in preventing proliferation 
will require the effort of all nations, not just the United 
States, and not just the nuclear powers, and getting 
cooperation will entail the United States and other nuclear 
powers making progress in nuclear disarmament.'' I agree fully 
with this statement. Some of our members think that would be 
overstated. Others say there's a difference in degree of that 
issue, but all of us see some coupling between those two areas.
    Fourth, the President, in his Prague speech, made a very 
strong statement that ``the United States seeks a world without 
nuclear weapons and that therefore we should reduce their 
numbers and their salience,'' but he says, ``As long as nuclear 
weapons exist, the United States must maintain safe, secure, 
reliable forces capable of providing deterrence and extended 
deterrence.'' All of our members agree with the latter part of 
that statement, mainly the importance of maintaining safe, 
secure, and reliable deterrent forces.
    I strongly agree with the full statement. I must say that 
some of the members do not agree that we should be seeking a 
world without nuclear weapons, but all of them fully support 
the view that we should be reducing the numbers of nuclear 
weapons, if that can be done in a bilateral fashion.
    The fifth statement of the administration is that ``we 
should seek new treaties, a new START, a fissile material cut-
off treaty, and a Comprehensive Test Ban Treaty (CTBT).'' All 
of our members agree that it's important to seek a new START 
and a treaty on fissile material cut-off.
    On the CTBT ratification, our members are divided. We 
clearly articulate that division in the report and the pros and 
cons. My own view is that the United States cannot assume 
leadership in the field of proliferation if we do not ratify 
the CTBT and so I strongly support that ratification. This is 
an issue which will be coming before the Senate very shortly. 
Many of us will no doubt be asked to testify on that matter. I 
will be testifying in favor of it, some of our members will be 
testifying against it. So we are divided on that issue.
    On missile defense, we focused on two different aspects. 
One, the President said, ``We should move forward on missile 
defense as long as the Iranian threat persists'' and that ``we 
should seek to find a way of cooperating with the Russians on 
this.'' We agree with both of those conclusions.
    There are real differences among our members on the 
relative role as well as the importance of missile defense, but 
on those two issues, we are in agreement.
    The President has talked about civilian nuclear programs, 
and we need to get that under control; and we need a new 
international framework to discourage the spread of enrichment 
and processing capabilities, and we all agree with that.
    Finally, the President said, ``We should seek to roll back 
North Korea's nuclear program and prevent Iran.'' He observed, 
``The Six-Party Talks have failed to stop North Korea from 
going ahead with their nuclear program,'' that ``compliance 
with the NPT is in tatters and that there must be consequences 
when nations violate it.'' We agree with all of those 
conclusions. The question is: how do you do those things?
    Beyond reporting on these policy issues, we make specific 
recommendations on how to sustain the deterrent force, 
particularly in the face of an American policy of no testing, 
no design of new weapons, and the limited funding that has been 
put on the program.
    The key to doing this is maintaining the strength of our 
weapons laboratories which have outstanding technical staffs. 
We have had remarkable success to this date in the SSP and the 
Life Extension Program, but as our weapons age, that success is 
going to become very much harder to achieve.
    Given that problem, the government has responded by cutting 
the staff at the weapons laboratories and we find that 
inexplicable. We argue that that trend should be reversed and 
beyond that we suggest that the laboratories should have added 
responsibilities in other fields besides nuclear weapons. In 
particular, in civilian energy, nuclear intelligence, and in 
general research and development.
    The labs are unique national assets and by giving them this 
expanded national security role, they can be a great benefit to 
the Nation. If that were done, they probably should be renamed 
national security laboratories for the Nation, not just the 
nuclear weapons labs.
    If this were done, we should really give them freedom of 
action appropriate for this mission. In particular, the 
National Nuclear Security Administration (NNSA) should have 
more autonomy than it now has and we have recommended that it 
report to the President through the Secretary of the Department 
of Energy (DOE) which is different from present reporting 
channels.
    The problem in the past with NNSA was its inability to 
provide adequate management, because of the bureaucratic staff, 
mostly in DOE. We need to find a way of getting full engagement 
of the Secretary of Energy without the burdensome bureaucracy 
imposed by his staff.
    I'm going to conclude by observing that we have a world 
ahead of us which has very imposing dangers. The danger that 
the non-proliferation regime will collapse is facing us right 
now. There is also the danger that there will be a cascade of 
proliferation in the next few years. Both of these increase the 
risk of nuclear terrorism; and the danger that nuclear powers 
will reengage in a competition, reminiscent of the Cold War. 
There is also some hope we can have a brighter future if we can 
find a way of sustaining the nuclear nonproliferation regime, 
constraining proliferation, stymieing nuclear terrorism, and 
that the nuclear powers will find a way of cooperating instead 
of competing in the nuclear field.
    The report which we are submitting to you describes the 
strategy which we think will lead to a more hopeful future 
rather than the bleak future which I've previously described.
    Thank you, Mr. Chairman. I'd like to now turn it over to 
Dr. Schlesinger.
    [The prepared statement of Dr. Perry follows:]
               Prepared Statement by Dr. William J. Perry
    Chairman Levin, Ranking Member McCain, and Members of the Armed 
Services Committee, it is a pleasure to be here today with my colleague 
Dr. Schlesinger to present to you the findings and results of the work 
of the Congressional Commission on the Strategic Posture of the United 
States.
    Last year, Congress appointed our 12-person bipartisan group to 
conduct this review of U.S. strategic posture, and asked me to serve as 
Chairman with Jim Schlesinger as Vice Chairman. This Commission has 
deliberated for the last 11 months and is now prepared to report to the 
administration, to Congress, and to the American people, and we are 
here today to do so. We all applaud the wisdom of Congress in setting 
up this Commission. For too long, there have been unanswered, even 
unasked, questions about the strategic posture of the United States, 
especially the nuclear dimensions of that posture. This ``strategic 
silence'' has not served America well. Continuing questions about our 
broader strategic posture have gone unaddressed, while the military, 
geopolitical, and technical needs that underlie these questions have 
grown ever more insistent. We understood from the outset that the lack 
of consensus about the future of the U.S. nuclear deterrent was a key 
motivator in Congress's charge to the Commission. So your tasking last 
year to the Commission was timely. We hope that our report will be a 
useful input to the new administration as it prepares to undertake a 
new nuclear posture review.
    The Commission has greatly benefited from the input of a number of 
Members of Congress, outside groups and individuals of every stripe 
that care deeply about these issues and their country. Likewise we have 
been enriched in our understanding of these issues by the thoughtful 
perspectives and advice of nations that are U.S. allies, friends, or 
fellow nuclear powers. We received unstinting assistance from the 
executive branch, which has been individually and collectively 
supportive of the Commission. The United States Institute of Peace, its 
employees and contractors have provided outstanding support to the 
Commission, and I thank them. I also want to make special mention of 
and praise the members of our five Expert Working Groups and their 
leaders, who have volunteered countless hours of their time in 
supporting the Commission and its work and provided us with strong 
intellectual assistance of the highest caliber.
    While each Commissioner would have written a report that would be 
worded somewhat differently than our final report, it is most 
significant that with the exception of parts of the chapter on the 
Comprehensive Test Ban Treaty (CTBT), this is a consensus document. 
Even with CTBT, while we could not agree on common language overall, we 
did agree on recommendations that would prepare the way for Senate 
reconsideration of the Treaty. We strove to ensure that the essence of 
our disagreement was presented as clearly and succinctly as possible so 
that interested individuals and groups can review the arguments, weigh 
them carefully, and reach their own conclusions.
    At the beginning of the Commission's work, I did not imagine that 
such an ideologically disparate group of senior experts would find so 
much common ground. The trail we followed to arrive at this document 
was not always easy for us, logistically, intellectually, or 
emotionally. But the seriousness of the issues, and the stakes involved 
for America and the world, called forth the ``better angels'' in all of 
us Commissioners, producing the largely consensus document you have 
before you today. We hope that the executive branch and Congress will 
also face these critical security policy issues in a similar 
nonpartisan spirit.
    In conducting its work, the Commission has adopted a broad 
definition of strategic posture. We defined the scope of our work to 
include all dimensions of nuclear weapons, including the key 
infrastructures that support them, and all the major tools to counter 
the nuclear threat to the United States and its allies, including arms 
control, missile defense, and countering nuclear proliferation. But we 
also defined some limits to our inquiry. For example, we chose not to 
expand our scope of work to address issues associated with all weapons 
of mass destruction, though we did address the question of whether and 
how nuclear weapons have a role in deterring attacks with biological 
weapons. Neither did we examine threats such as cyber attacks and space 
conflict, though this does not mean we consider them unimportant, and 
believe they merit serious examination in the near future. Also, our 
pre-eminent conventional military capabilities are themselves a major 
strategic force, but we understood Congress was not seeking our advice 
on these matters.
    When one considers the destructive power of the nuclear weapons 
within our strategic posture, which generated important disagreements 
throughout the Cold War and after, it is not surprising the American 
nuclear posture has been, and will continue to be, highly controversial 
on key issues. What was surprising is the extent to which our 
commission did reach agreement on numerous issues related to our 
deterrent capabilities, nonproliferation initiatives and arms control 
strategies--what I believe are the three key components of U.S. 
strategic posture in the years ahead. The Commission agreed that the 
Nation must continue to safeguard itself by maintaining a nuclear 
deterrent appropriate to existing threats until such time as verifiable 
international agreements are in place that could set the conditions for 
the final abolition of nuclear weapons. That is, we seek to safeguard 
our security by supporting military and intelligence programs that 
maintain our deterrence force. At the same time, we also seek to 
safeguard our security by supporting largely non-military programs that 
prevent the proliferation of nuclear weapons to other states, that 
reduce the number of nuclear weapons worldwide, and that provide better 
protection for the residual nuclear forces and fissile material. Both 
approaches are necessary for America's future; each can and should 
reinforce the other; and neither by itself is sufficient as long as 
nuclear weapons still exist in the world.
    Nuclear weapons safeguarded our security for decades during the 
Cold War by deterring an attack on the U.S. and its allies. We will 
need them to continue to perform this deterrence role as long as others 
possess them as well. On the other hand, if nuclear weapons were to 
fall into the hands of a terror organization, they could pose an 
extremely serious threat to our security, and one for which traditional 
forms of deterrence would not be applicable, given the terrorist 
mindset. We must be mindful that al Qaeda, for example, has declared 
that obtaining a nuclear weapon is a ``holy duty'' for its members. 
Preventing nuclear terrorism is closely tied to stopping the 
proliferation of nuclear weapons, and recent developments in North 
Korea and Iran suggest that we may be at or near a tipping point in 
nuclear proliferation. (The urgency of stopping proliferation is 
articulated compellingly in the recent WMD Commission report: ``World 
at Risk.'')
    While the programs that maintain our deterrence force are national, 
the programs that prevent proliferation and safeguard nuclear weapons 
and fissile material are both national and international. Indeed, it is 
clear that we cannot meet our goal of reducing the proliferation threat 
without substantial international cooperation. We cannot ``go it 
alone'' on this crucial security issue, nor need we, given that other 
nations are at risk from nuclear proliferation as much as we. But the 
international programs that are most effective in containing and 
rolling back proliferation can sometimes be in conflict with the 
national programs designed to maintain deterrence. Thus a strategic 
posture for the U.S. that meets both of these security requirements 
will necessarily have to make some tradeoffs between these two 
important security goals when they are in conflict. Some commissioners 
give a priority to dealing with one threat while others give a priority 
to dealing with the other threat. But throughout the deliberations of 
the commission, there was unswerving member loyalty to the importance 
of assuring U.S. security in the years ahead, and all of our members 
sought to strike a balance that supports, to reasonable levels, both of 
these security needs. To a large extent, I am pleased to say, we were 
able to meet that objective.
    The need to strike such a balance has been with us at least since 
the ending of the Cold War. President Clinton's policy on nuclear 
posture spoke of the need to ``lead but hedge.'' That policy called for 
the U.S. to lead the world in mutual nuclear arms reductions and to 
lead in programs to prevent the proliferation of nuclear weapons, while 
at the same time maintaining a nuclear deterrent force that hedged 
against adverse geopolitical developments. The leadership aspect of 
this policy was demonstrated most vividly by a cooperative program with 
Russia, established under the Nunn-Lugar Program that dismantled more 
than 4,000 Russian nuclear weapons and assisted Ukraine, Belarus, and 
Kazakhstan in removing all of their nuclear weapons, a signal 
contribution to a safer world. U.S. leadership was also demonstrated by 
signing the Comprehensive Test Ban Treaty (CTBT), which seeks a 
permanent end to all nuclear testing, and negotiating with Russia a new 
arms control treaty for further reductions in nuclear weapons. However, 
neither treaty was ratified by the Senate. The Bush administration 
initially took a different view on U.S. strategic posture, but last 
year Defense Secretary Gates explicitly reaffirmed that the American 
nuclear posture would be based on the time-tested ``lead but hedge'' 
strategy.
    President Obama has moved this strategy forward, stating that the 
U.S. should work towards the goal of eventually eliminating all nuclear 
weapons. But he has also said that until that goal is reached, he is 
committed to maintain a U.S. nuclear deterrent that is safe, secure, 
and reliable. This is, in a sense, the most recent formulation of the 
``lead but hedge'' policy. The Commission believes that reaching the 
ultimate goal of global nuclear elimination would require a fundamental 
change in the world geopolitical situation, something that none of us 
believe is imminent. Senator Sam Nunn, former chairman of this 
committee, who has espoused the vision of nuclear elimination, has 
described this vision as the ``top of the mountain,'' which cannot be 
seen at this time, and the exact path to which is not yet visible. But 
he argues that we should be heading up the mountain to a ``base camp'' 
that would be safer than where we are today, and from which the path to 
the mountaintop becomes clearer. In Nunn's view, getting the 
international political support to move to this ``base camp'' requires 
the United States to affirm the vision of global elimination of nuclear 
weapons. When we reach the base camp, it would:

        <bullet> provide for U.S. nuclear forces that are safe, secure 
        and can reliably deter attacks against the U.S. and our allies;
        <bullet> be headed in the direction of the global elimination 
        of nuclear weapons; and
        <bullet> be stable--that is, it should be sustainable even 
        under typical fluctuations in geopolitical conditions.

    This base camp concept serves as an organizing principle for my own 
thinking about our strategic posture, since it allows the United States 
to both lead in the struggle to reduce and ultimately eliminate the 
nuclear danger; and hedge against a reversal in this struggle, 
providing an important safety net for U.S. security. While some of the 
commissioners do not accept this view of the base camp as an organizing 
principle, all commissioners accept the view that the U.S. must support 
programs that both lead and hedge; that is, programs that move in two 
parallel paths--one path which protects our security by maintaining 
deterrence, and the other which protects our security by reducing the 
danger of nuclear weapons.
    The first path, ``Deterrence,'' would include the following 
components:

        <bullet> Clarify our policy on use of nuclear weapons to 
        include a statement that our nuclear forces are intended to 
        deter an attack against the U.S. or its allies (extending this 
        security guarantee to our allies is often referred to as 
        ``extended deterrence'') and would be used only as a defensive 
        last resort; at the same time, our policy would reaffirm the 
        security assurances we have made to non-nuclear states that 
        signed the Non-Proliferation Treaty (NPT).
        <bullet> Back up our deterrent and extended deterrent policy by 
        assuring that our nuclear forces--including the weapons 
        themselves, their delivery platforms, and the surveillance, 
        detection, and command/control/communications/intelligence 
        infrastructures that support them and the National Command 
        Authority--are safe, secure, and reliable, and in sufficient 
        quantities to perform their deterrent tasks;
        <bullet> Maintain the safety, security, reliability, and 
        effectiveness of our nuclear weapons stockpile by an enhanced 
        nuclear weapons life extension program as long as it is 
        feasible; but ensure the nuclear weapons laboratories maintain 
        their capability to design a new weapon should that ever become 
        necessary;
        <bullet> Provide robust support for the Stockpile Stewardship 
        Program, DOE's highly successful program to ensure the safety, 
        security and reliability of the Nation's nuclear stockpile 
        without testing. This program seeks a comprehensive, science-
        based understanding of nuclear weapon systems, and entails 
        pushing the frontiers of computing and simulation along with 
        ensuring robust laboratory experimental capabilities. The 
        weapons labs have achieved remarkable success with stockpile 
        stewardship, but continued success is endangered by recent 
        personnel and funding cuts.
        <bullet> Maintain all three weapon laboratories with programs 
        that fully support the nuclear weapons programs and maintain 
        their scientific and design vitality. Besides weapons programs, 
        their program mix should include fundamental research and 
        energy technologies as well as an expanded national security 
        role, which will benefit other dimensions of the security 
        challenges we face.
        <bullet> Transform our weapons production capability by 
        reducing and modernizing it, giving first priority to the Los 
        Alamos plutonium facility, followed by the Y-12 site Uranium 
        Processing Facility site after the plutonium facilities are 
        under construction. The goal would be to have a capability to 
        produce small numbers of nuclear weapons as needed to maintain 
        nuclear stockpile reliability.
        <bullet> Provide proven strategic missile defenses sufficient 
        to limit damage from and defend against a limited nuclear 
        threat such as posed by North Korea or Iran, as long as the 
        defenses are effective enough to at least sow doubts in the 
        minds of such countries that an attack would succeed. These 
        defenses should not be so sizable or capable as to sow such 
        doubts in the minds of Russia or China, which could well lead 
        them to take countering actions, increasing the nuclear threat 
        to the U.S. and its allies and friends and undermining efforts 
        to reduce nuclear numbers, and nuclear dangers.
        <bullet> Reprogram funding to initiate F-35 fighter aircraft 
        contractor participation with NNSA to assure that the U.S. 
        would maintain current capabilities available to support U.S. 
        allies.

    The Commission recognizes the tension between modernization and 
nonproliferation. But so long as modernization proceeds within the 
framework of existing U.S. policy, it should minimize political 
difficulties. As a matter of policy, the United States does not produce 
fissile materials and does not conduct nuclear explosive tests, and 
does not currently seek new weapons with new military characteristics. 
Within this framework, the United States should seek all of the 
possible benefits of improved safety, security, and reliability.
    The second path, ``Reducing the Danger,'' includes the following 
components:

        <bullet> Re-energize efforts to reverse the nuclear 
        proliferation of North Korea and prevent the nuclear 
        proliferation of Iran. Seek global cooperation to deal with 
        other potential proliferation concerns arising from the 
        anticipated global expansion of civilian nuclear power.
        <bullet> Negotiate arms reduction treaties with Russia that 
        make significant reductions in the nuclear stockpiles of Russia 
        and the United States. The treaties should include verification 
        procedures and should entail real reductions, not just a 
        transfer from deployed to Reserve Forces. The first treaty 
        could decrease deployed strategic warheads to numbers lower 
        than the lower SORT limit (Moscow Treaty of 2002), but the 
        actual numbers are probably less important than the ``counting 
        and attribution rules'' of preceding agreements. I am quite 
        encouraged by President Obama's announcement that he will seek 
        a replacement strategic arms agreement before START I expires 
        this December, and the positive Russian response. Follow-on 
        treaties should seek deeper reductions, which would require 
        finding ways to deal with difficult problems such as addressing 
        ``tactical'' nuclear forces, Reserve weapons and engaging other 
        nuclear powers.
        <bullet> Seek a deeper strategic dialogue with Russia that is 
        broader than nuclear treaties, to include civilian nuclear 
        energy, ballistic missile defenses, space systems, nuclear 
        nonproliferation steps, and ways of improving warning systems 
        and increasing decision time.
        <bullet> Renew and strengthen strategic dialogue with a broad 
        set of states interested in strategic stability, including not 
        just Russia and our North Atlantic Treaty Organization allies 
        but also China and U.S. allies and friends in Asia.
        <bullet> Augment funding for threat reduction activities that 
        strengthen controls at vulnerable nuclear sites. The surest way 
        to prevent nuclear terrorism is to deny terrorist acquisitions 
        of nuclear weapons or fissile materials. An accelerated 
        campaign to close or secure the world's most vulnerable nuclear 
        sites as quickly as possible should be a top national priority. 
        This would build on and expand the important foundation of work 
        begun under the Nunn-Lugar Cooperative Threat Reduction 
        Program. Commit to the investment necessary to remove or secure 
        all fissile material at vulnerable sites worldwide in 4 years. 
        This relatively small investment could dramatically decrease 
        the prospects of terrorist nuclear acquisition.
        <bullet> Seek Senate ratification of the Comprehensive Test Ban 
        Treaty and encourage other hold-outs to do likewise. I strongly 
        support Senate ratification of the CTBT, but I want to be clear 
        that my view is not shared by all commissioners. I believe that 
        the Stockpile Stewardship Program, established as a safeguard 
        when the U.S. signed the CTBT, has been an outstanding success, 
        and, with sufficient funding support, can continue to be. The 
        United States has refrained from testing nuclear weapons for 17 
        years already and has no plans to resume such testing in the 
        future. Prior to seeking ratification, the administration 
        should obtain an explicit understanding with the P-5 states as 
        to what tests are permitted by the treaty, and conduct a 
        careful analysis of the issues that prevented ratification a 
        decade ago. (All commissioners agree that these preceding steps 
        should be taken, but not all commissioners support ratifying 
        the CTBT.)
        <bullet> While the Senate has the responsibility for 
        considering the CTBT for ratification, both the Senate and the 
        House should support funding for any Treaty safeguards the 
        Obama administration may propose, which will be essential to 
        the ratification process.
        <bullet> Prepare carefully for the NPT review conference in 
        2010. If we are able to make progress in a new arms reduction 
        treaty and CTBT ratification, this would reassert U.S. 
        leadership and create favorable conditions for a successful 
        conference.
        <bullet> Seek an international Fissile Material Cutoff Treaty, 
        as President Obama has called for, that includes verification 
        procedures, and redouble domestic and international efforts to 
        secure all stocks of fissile material, steps that would 
        discourage both nuclear proliferation and nuclear terrorism.
        <bullet> Seek to strengthen the International Atomic Energy 
        Agency (IAEA) in its task to prevent the proliferation of 
        nuclear weapons to other nations and control access to fissile 
        material. In particular, work with the IAEA to promote 
        universal adoption of the Additional Protocol to the NPT, which 
        would allow extra inspections of suspected nuclear facilities 
        as well as declared facilities.
        <bullet> Develop and pursue options for advancing U.S. 
        interests in stability in outer space and in increasing warning 
        and decision-time. The options could include the possibility of 
        negotiated measures.
        <bullet> Renew the practice and spirit of executive-legislative 
        dialogue on nuclear strategy that helped pave the way for 
        bipartisanship and continuity in policy in past years. To this 
        end, we urge the Senate to consider reviving the Arms Control 
        Observer Group, which served the country well in the past.

    In surveying six-plus decades of nuclear history, the Commission 
notes that nuclear weapons have not been used since 1945. It is clear 
that a tradition against the use of nuclear weapons has taken hold, 
which we must strive to maintain, and urge all nuclear-armed nations to 
adhere to it.
    In sum, this is a moment of opportunity but also of urgency. The 
opportunity arises from the arrival of the new administration in 
Washington and the top-down reassessment that must now begin of 
national security strategy and of the purposes of U.S. nuclear weapons. 
The opportunity also arises because the Russian government has 
indicated a readiness to undertake a serious dialogue with the U.S. on 
strategic issues. The urgency arises because of the imminent danger of 
nuclear terrorism if we pass a tipping point in nuclear proliferation. 
The urgency also arises because of an accumulation of difficult 
decisions affecting our nuclear posture.
    The commissioners know and agree on what direction they want to see 
the world take. We reject the vision of a future world defined by a 
collapse of the nonproliferation regime, a cascade of nuclear 
proliferation to new states, a resulting dramatic rise in the risks of 
nuclear terrorism, and renewed fruitless competition for nuclear 
advantage among major powers.
    As pragmatic experts, we embrace a different vision. We see a world 
where the occasional nonproliferation failure is counter-balanced by 
the occasional rollback of some and continued restraint by the many. We 
see a world in which nuclear terrorism risks are steadily reduced 
through stronger cooperative measures to control terrorist access to 
materials, technology, and expertise. We see a world of cooperation 
among the major powers that ensures strategic stability and order, and 
steadily diminishes reliance on nuclear weapons to preserve world 
peace, not as a favor to others, but because it is in the best 
interests of the United States, and the world. We commissioners believe 
that implementing the strategy our report recommends will help the 
United States lead the global effort to give fruitful birth to this new 
world.

    Chairman Levin. Dr. Perry, thank you so much.
    Dr. Schlesinger.

     STATEMENT OF DR. JAMES R. SCHLESINGER, VICE CHAIRMAN, 
CONGRESSIONAL COMMISSION ON THE STRATEGIC POSTURE OF THE UNITED 
STATES; ACCOMPANIED BY SENATOR JOHN GLENN, DR. HARRY CARTLAND, 
                      AND DR. JOHN FOSTER

    Dr. Schlesinger. Thank you, Mr. Chairman.
    Congress established the Congressional Commission on the 
Strategic Posture of the United States in order to provide 
recommendations regarding the appropriate posture for the 
United States under the changed conditions of the 21st century. 
The appointed commissioners represented a wide range of the 
political spectrum and had quite diverse judgments on these 
matters.
    Nonetheless, urged by Members of Congress, including 
Senator Sessions, the Commission has sought to develop a 
consensus view. To a large extent and to some an astonishing 
extent, the Commission has succeeded in that effort.
    Secretary Perry and I are here to present this consensus to 
the committee. We are, of course, indebted to the committee for 
this opportunity to present these recommendations.
    For over half a century, the U.S. strategic policy has been 
driven by two critical elements: to maintain a deterrent that 
prevents attacks on the United States, its interests and, 
notably, its allies, and to prevent a proliferation of nuclear 
weapons.
    Dr. Perry mentioned that nuclear proliferation is a new 
issue. It is an old issue which is now enhanced by subsequent 
developments.
    The end of the Cold War and particularly the collapse of 
the Soviet Union Warsaw Pact, along with the substantial edge 
that the United States is developing conventional military 
capabilities, have permitted this country sharply to reduce our 
reliance on nuclear weapons, radically to reduce our nuclear 
forces, and to move away from a doctrine of nuclear initiation 
to a stance of nuclear response only under extreme 
circumstances of major attack on the United States or its 
allies.
    On the other hand, the growing availability of nuclear 
technology, along with the relaxation of the constraints of the 
Cold War, have obliged us to turn increasing attention to the 
problem of non-proliferation and, in particular, the 
possibility of a terrorist nuclear attack on the United States.
    Secretary Perry has just spoken on the issues of arms 
control, diplomacy, the problems of proliferation, and the 
risks of nuclear terrorism. I, for my part, will focus on the 
need, despite its substantially shrunken role in the post Cold 
War world, to maintain a deterrent reduced in size, yet 
nonetheless reliable and secure and sufficiently impressive and 
visible to provide assurance to the 30-odd nations that are 
protected under the U.S. nuclear umbrella.
    Since the early days of the North Atlantic Treaty 
Organization (NATO), the United States has provided extended 
deterrence for its allies. That has proved a far more demanding 
task than the protection of the United States itself. In the 
past that has required a deterrence sufficiently large and 
sophisticated to deter a conventional attack by the Soviet 
Union Warsaw Pact.
    It also meant that the United States discouraged the 
development of national nuclear capabilities, particularly 
during the Kennedy administration, both to prevent 
proliferation and to avoid the diversion of resources away from 
the development of conventional allied capabilities.
    With the end of the Cold War and the achievement of U.S. 
preponderance and conventional capabilities, the need for so 
substantial a deterrent largely disappeared. Nonetheless, the 
requirements for extended deterrence still remain at the heart 
of the design of the U.S. nuclear posture. Extended deterrence 
still remains a major barrier to proliferation. Both the size 
and the specific elements of our forces are driven more by the 
need to reassure those that we protect under the nuclear 
umbrella than by U.S. requirements alone.
    Even though the overall requirements of our nuclear forces 
have shrunk by some 80 percent since the height of the Cold 
War, nonetheless, the expansion of NATO and the rise of the 
Chinese nuclear force is significant, if modest, have altered 
somewhat the requirements for our own nuclear forces.
    Two, even though the modest probable source of a weapon 
landing on American soil, increasingly as that of a terrorist 
attack, nonetheless, the sizing of our forces, in addition to 
other elements of our deterrent posture, remains driven in 
large degree by Russia.
    Our NATO allies, and most notably the new members of NATO, 
remain wary of Russia and would eye any sharp reduction of our 
nuclear forces relative to those of Russia, especially in light 
of the now greater emphasis by Russia on tactical nuclear 
weapons.
    Consequently, the Commission did conclude that we should 
not engage in unilateral reductions in our nuclear forces and 
that such reductions should occur only as a result of bilateral 
negotiations with Russia under a follow-on START agreement. Any 
such reductions must, of course, be thoroughly discussed with 
our allies.
    Three, our East Asian allies also view with great interest 
our capabilities relative to the slowly-burgeoning Chinese 
force. Clearly that adds complexities, for example, to the 
protection of Japan, though that remains a lesser driver with 
respect to overall numbers. Still, the time has come to engage 
Japan in more comprehensive discussions akin to those with NATO 
in the Nuclear Planning Group. It will also augment the 
credibility of the Pacific extended deterrent.
    Four, the Commission has been urged to specify the numbers 
of nuclear weapons the United States should have. That is an 
understandable question, particularly in light of the demands 
of the appropriations process in Congress. Nonetheless, it is a 
mistake to focus unduly on numbers without reference to the 
overall strategic context.
    Clearly, it would be illogical to provide a number outside 
the process of negotiations with Russia, given the need to 
avoid giving away bargaining leverage. In preparation for the 
Treaty of Moscow, as with all of its predecessors, the 
composition for our prospective forces was subject to the most 
rigorous analysis. Thus, it would seem to be unacceptable to go 
below the numbers specified in that treaty without a similarly 
rigorous analysis of the strategic context which has not yet 
taken place.
    Moreover, as our Russian friends have repeatedly told us, 
strategic balance is more important than the numbers 
themselves.
    Five, given the existence of other nations' nuclear 
capabilities and the international role that the United States 
necessarily plays, the Commission quickly reached the judgment 
that the United States must maintain a nuclear deterrent for 
the indefinite future. It must convey not only the capacity but 
the will to respond in necessity.
    Some members of the Commission have expressed a hope that 
at some future date we might see the worldwide abolition of 
nuclear weapons. The judgment of the Commission, however, has 
been that attainment of such a goal would require a 
transformation of world politics.
    President Obama also has expressed that goal but has added 
that as long as nuclear weapons exist in the world, the United 
States must maintain a strong deterrent. We should all bear in 
mind that the abolition of nuclear weapons will not occur 
outside the transformation of world politics.
    Six, we sometimes hear or read the query: why are we 
investing in these capabilities which will never be used? This 
is a fallacy. A deterrent, if it is effective, is in use every 
day. The purpose in sustaining these capabilities is to be 
sufficiently impressive, sufficiently formidable to avoid their 
use in the sense of the actual need to deliver weapons to 
targets. That is the nature of any deterrent but particularly 
so a nuclear deterrent. It exists to deter major attacks 
against the United States, its allies, and its interests.
    Years ago the role and the details of our nuclear deterrent 
commanded sustained and high-level national interest. 
Regrettably today, they do so far less than is necessary. 
Nonetheless, the role of the deterrent remains crucial. 
Therefore, I and the other members of the Commission thank this 
committee for its continued attention to these critical 
questions.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Schlesinger follows:]
              Prepared Statement by Dr. James Schlesinger
    Mr. Chairman, members of the committee: Congress established the 
Commission on Strategic Posture in order to provide recommendations 
regarding the appropriate posture for the United States under the 
changed conditions of the early 21st century. The appointed 
Commissioners represent a wide range of the political spectrum and have 
had quite diverse judgments on these matters. Nonetheless, urged by 
Members of Congress, the Commission has sought to develop a consensus 
view. To a large--and, to some, a surprising--extent, the Commission 
has succeeded in this effort. Secretary Perry and I are here to present 
that consensus to this committee. We are, of course, indebted to the 
committee for this opportunity to present these recommendations.
    For over half a century, the U.S. strategic policy has been driven 
by two critical elements: to maintain a deterrent that prevents attacks 
on the United States, its interests, and, notably, its allies--and to 
prevent the proliferation of nuclear weapons. The end of the Cold War, 
and particularly the collapse of the Soviet Union/Warsaw Pact, along 
with the substantial edge that the United States has developed in 
conventional military capabilities have permitted this country sharply 
to reduce our reliance on nuclear weapons, radically to reduce our 
nuclear forces, and to move away from a doctrine of nuclear initiation 
to a stance of nuclear response only under extreme circumstances of 
major attack on the United States or its allies.
    On the other hand, the growing availability of nuclear technology, 
along with the relaxation of the constraints of the Cold War, have 
obliged us to turn increasing attention to the problem of 
nonproliferation and, in particular, to the possibility of a terrorist 
nuclear attack on the United States.
    Secretary Perry has just spoken on the diplomatic issues and the 
problems of preventing proliferation, and the risks of nuclear 
terrorism. I, for my part, will focus on the need, despite its 
substantially shrunken role in the post-Cold War world, to maintain a 
deterrent reduced in size, yet nonetheless reliable and secure--and 
sufficiently impressive and visible to provide assurance to the 30-odd 
nations that are protected under the U.S. nuclear umbrella.

          1. Since the early days of NATO, the United States has 
        provided Extended Deterrence for its allies. That has proved a 
        far more demanding task than protection of the United States 
        itself. In the past that has required a deterrent sufficiently 
        large and sophisticated, to deter a conventional attack by the 
        Soviet Union/Warsaw Pact. It also meant that the United States 
        discouraged the development of national nuclear capabilities, 
        particularly during the Kennedy administration, both to prevent 
        proliferation and to avoid the diversion of resources away from 
        the development of conventional allied capabilities. With the 
        end of the Cold War and the achievement of U.S. preponderance 
        in conventional capabilities, the need for so substantial a 
        deterrent largely disappeared. Nonetheless, the requirements 
        for Extended Deterrence still remain at the heart of the design 
        of the U.S. nuclear posture. Extended Deterrence still remains 
        a major barrier to proliferation. Both the size and the 
        specific elements of our forces are driven more by the need to 
        reassure those that we protect under the nuclear umbrella than 
        by U.S. requirements alone. Even though the overall 
        requirements of our nuclear forces have shrunk some 80 percent 
        since the height of the Cold War, nonetheless the expansion of 
        NATO and the rise of Chinese nuclear forces, significant if 
        modest, have altered somewhat the requirements for our own 
        nuclear forces.
          2. Even though the most probable source of a weapon landing 
        on American soil increasingly is that of a nuclear terrorist 
        attack, nonetheless the sizing of our own nuclear forces (in 
        addition to other elements of our deterrent posture) remains 
        driven in large degree by Russia. Our NATO allies--and most 
        notably the new members of NATO--remain wary of Russia and 
        would eye nervously any sharp reduction of our nuclear forces 
        relative to those of Russia--especially in light of the now 
        greater emphasis by Russia on tactical nuclear weapons. 
        Consequently, the Commission did conclude that we should not 
        engage in unilateral reductions in our nuclear forces and that 
        such reductions should occur only as a result of bilateral 
        negotiations with Russia under a follow-on START Agreement. Any 
        such reductions must, of course, be thoroughly discussed with 
        our allies
          3. Our East Asian allies also view with great interest our 
        capabilities relative to the slowly burgeoning Chinese force. 
        Clearly that adds complexities, for example, to the protection 
        of Japan, though that remains a lesser driver with respect to 
        overall numbers. Still, the time has come to engage Japan in 
        more comprehensive discussions--akin to those with NATO in the 
        Nuclear Planning Group. It will also augment the credibility of 
        the Extended Deterrent.
          4. The Commission has been urged to specify the number of 
        nuclear weapons the United States should have. That is an 
        understandable question--particularly in light of the demands 
        of the appropriations process in Congress. Nonetheless, it is a 
        mistake to focus unduly on numbers, without reference to the 
        overall strategic context. Clearly, it would be illogical to 
        provide a number outside of the process of negotiation with 
        Russia--given the need to avoid giving away bargaining 
        leverage. In preparation for the Treaty of Moscow, as with all 
        of its predecessors, the composition for our prospective forces 
        was subjected to the most rigorous analyses. Thus, it would 
        seem to be unacceptable to go below the numbers specified in 
        that Treaty without a similarly rigorous analysis of the 
        strategic context--which has not yet taken place. Moreover, as 
        our Russian friends have repeatedly told us: strategic balance 
        is more important than the numbers.
          5. Given the existence of other nations' nuclear capabilities 
        and the international role that the United States necessarily 
        plays, the Commission quickly reached the judgment that the 
        United States must maintain a nuclear deterrent for ``the 
        indefinite future.'' It must convey, not only the capacity, but 
        the will to respond--in necessity. Some members of the 
        Commission have expressed a hope that at some future date we 
        might see the worldwide abolition of nuclear weapons. The 
        judgment of the Commission, however, has been that attainment 
        of such a goal would require a ``transformation of world 
        politics.'' President Obama also has expressed that goal, but 
        has added that as long as nuclear weapons exist in the world, 
        the United States must maintain ``a strong deterrent.'' We 
        should all bear in mind that abolition of nuclear weapons will 
        not occur outside that ``transformation of world politics.''
          6. We sometimes hear or read the query: why are we investing 
        in these capabilities which will never be used?'' This is a 
        fallacy. A deterrent, if it is effective, is in ``use'' every 
        day. The purpose in sustaining these capabilities is to be 
        sufficiently impressive to avoid their ``use''--in the sense of 
        the actual need to deliver the weapons to targets. That is the 
        nature of any deterrent, but particularly a nuclear deterrent. 
        It exists to deter major attacks against the United States, its 
        allies, and its interests.

    Years ago the role and the details of our nuclear deterrent 
commanded sustained and high-level national attention. Regrettably, 
today they do so far less than is necessary. Nonetheless, the role of 
the deterrent remains crucial. Therefore, I thank this committee for 
its continued attention to these critical questions.

    Chairman Levin. Thank you very much, Dr. Schlesinger. 
Senator Glenn or other members of the Commission, do you want 
to add anything at this point? [No response.]
    Let's try a 6-minute round for our first round. I'd like to 
focus on one of the many notable provisions of this report and 
that's the area of missile defense.
    This report supports a direction for a missile defense 
program which could help missile defense become a unifying 
issue instead of a divisive issue. First of all, you provide 
strong support for missile defense systems against short- to 
medium-range missiles. There has been a consensus on this 
committee in support of such missile defenses throughout the 
history of those defenses, including Patriot and Theatre High 
Altitude Area Defense and other defenses.
    As a matter of fact, this committee, I think it's fair to 
say, has actually led the way in a sense because we have not 
only supported these efforts, we've added to them significantly 
in terms of funding over the years.
    However, we've been not together and whether it's been 
divisiveness has to do mainly with the ground-based systems 
they are intended to defend against long-range missiles and 
there, the Commission is making some points which could unify 
us in a lot of ways and open and support a direction which a 
number of us have been exploring. I want to just read a couple 
paragraphs here. I usually don't do this. I look to the 
Commission to usually read their own report, but I want to 
emphasize what you've provided here.
    ``Further, in terms of these long-range defense 
interceptors,'' let me read from page 32, ``further development 
and deployment of these long-range defense interceptors should 
depend on the results of tests and depend upon developments in 
the ICBM threats facing the United States and its allies.''
    ``For more than a decade,'' you write, ``the development of 
U.S. Ballistic Missile Defenses (BMDs) has been guided by the 
principles of protecting against limited strikes while taking 
into account the legitimate concerns of Russia and China about 
strategic stability. These remain sound guiding principles. 
Defenses sufficient to sow doubts in Moscow or Beijing about 
the viability of their deterrents could lead them to take 
actions that increase the threat to the United States and its 
allies and friends. Both Russia and China have expressed 
concerns. Current U.S. plans for missile defense should not 
call into question the viability of Russia's nuclear 
deterrent.''
    Then the Commission says the following: ``The Commission 
supports a substantial role for defenses against short- to 
medium-range missiles. Defenses against longer-range missiles 
should be based upon demonstrated effectiveness and the 
projected threat from North Korea and Iran. Defenses against 
these limited threats should be designed to avoid giving Russia 
or China a reason to increase their strategic threat to the 
United States or its allies but these defenses should become 
capable against more complex limited threats as they mature. As 
noted above, this long-range missile defense system is now 
incapable of defending against complex threats.''
    This is the line that I want to focus on after I read it. 
``Cooperative missile defense efforts with allies should be 
strengthened and opportunities for missile defense cooperation 
with Russia should be further explored.''
    Now, three of us recently went to Russia, Poland, and the 
Czech Republic to explore that possibility, of whether or not 
we could move to greater cooperation with Russia on missile 
defense, at the same time maintaining our cooperation obviously 
with our NATO allies, including Poland and the Czech Republic.
    I went with, by the way, Senator Bill Nelson and Senator 
Collins. We spent about 4 days on our trip. From my 
perspective, and I think the others join in this, one of the 
reasons for trying to figure out a way to involve Russia in 
missile defense is the statement that it would make to Iran. It 
would be a very powerful statement to Iran if Russia joined 
with us or with NATO in a missile defense program which, from 
our perspective, would clearly be aimed against an Iranian 
missile threat. If they moved to the nuclear weapon direction, 
clearly it will make a statement to them about how the world, 
including Russia, views that threat, if we were able to work 
together on a missile defense system.
    I wanted to ask you--let me start with Dr. Perry--about 
that recommendation that you're making that we explore 
opportunities for missile defense cooperation with Russia. 
Again, I just wanted to add one further thought and that is 
that there is now in Azerbaijan a Russian radar. It's the 
Gambala radar, and there's a radar under construction in 
Southern Russia itself at Armivir and both of these clearly 
provide coverage of Iran in a way that probably provides better 
coverage of Iran than any other radars we could locate.
    So, Dr. Perry, do you believe that that radar-sharing, that 
information or in other ways that cooperation with Russia on 
missile defense could be a very useful move?
    Dr. Perry. I have met with Russians three times this year 
exploring that and other questions but with a major focus on 
that question. I met with both technical people and policy 
people in Russia.
    It seems clear to me that the Russian view on this issue 
has been evolving in the last year. It's now possible to do 
things that it was not possible to do a year ago. First of all, 
they have today a clear concern for the danger that Iran 
nuclear missiles pose to Russia. In fact, they think that the 
potential threat to Russia is greater than the threat to the 
United States.
    Second, their best course of action is to try to prevent 
Iran from getting nuclear weapons, and I think it's now 
possible to get cooperation with Russia on that in a way that 
was not possible a year or 2 ago.
    Third, if that prevention is not successful, they would 
like to see a missile defense program to protect them as well 
as to protect us and Western Europe. They're not only willing 
but anxious to work with us on a joint missile defense program 
and that joint missile defense program could include systems 
based in Russia as well as other countries.
    The best way of designing that system, I think, is still 
open. I would think it would involve that Azerbaijan radar 
which you described, but it could also involve interceptors in 
Russia. I would recommend that the United States undertake a 
program for serious discussion with Russia, first of all, at 
the technical level on what is the best way of designing such a 
system and that would be done in parallel with the policy 
efforts we have with them to try to develop a diplomatic 
approach to prevent nuclear weapons from being developed.
    I do think that the time is right for some real progress in 
that area.
    Chairman Levin. Thank you, and just in conclusion before I 
turn it over to Senator McCain, I know that President Obama has 
talked to the Russian president, at least in a general way, 
about this possibility. I've talked to our Secretary of State 
as well as to President Obama about this. I've talked to 
Secretary Gates who, before this committee, has expressed the 
kind of support for exploring this possibility that the 
Commission report describes.
    General Jones, I've also talked to him about this, and so 
there is, I think, a willingness at the highest levels of this 
government to further explore this possibility.
    I'm glad, Dr. Perry, that you mentioned the prevention of 
Iran getting missiles or nuclear weapons in the first place has 
to be our Number 1 goal. That has to be the focus and I've also 
heard from the Russians directly that they do not want Iran to 
receive or obtain, more accurately, a nuclear weapon. As a 
matter of fact, former President Gorbachev put it just as 
succinctly as you did a moment ago, as has the Russian Foreign 
Minister, that our number one goal should be to prevent Iran 
from getting that nuclear weapon.
    Hopefully Russia will join us much more strongly in that 
effort. If there's a possibility of a joint missile defense 
system for the reasons that your Commission gives, we want to 
explore, the three of us and others obviously are exploring, 
that. It could really be a very strong statement of moral unity 
against Iran that may give them a wake-up call as to how 
serious their effort would appear to us and be to us if they 
decide to move in the nuclear weapon direction.
    Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Dr. Schlesinger, have you detected the same eagerness on 
the part of Russia to cooperate with us on missile defense and 
their belief that the Iranian nuclear weapons are a greater 
threat to them than to us or Israel?
    I think I pay close attention to events of the day and I 
haven't detected that same eagerness on the part of the 
Russians. In fact, I've seen them engage in attempts to 
reassert their view abroad and breaking an agreement with 
President Sarkozy concerning the presence of troops in Georgia 
and many others.
    Specifically, have you detected this same eagerness that 
the Chairman and Dr. Perry have detected, which I obviously 
have missed?
    Dr. Schlesinger. The Russians, indeed, have a reason to 
have extended conversations with us in this area. Our relations 
with Russia are subject to ups and downs, but this is an area 
of potential cooperation.
    Senator McCain. I guess my question was, Doctor, have you 
detected any real moves towards that cooperation, besides 
rhetoric?
    Dr. Schlesinger. I think that the conversations that Dr. 
Perry and others have had in Moscow are suggestive that the 
proof is in the pudding, as you have suggested.
    With regard to the Chairman's question, when President 
Reagan suggested the Strategic Defense Initiative in the 1980s, 
it was directed against Russia. There have been two 
developments since that time. First, the threat has, to a 
substantial extent, disappeared. We do not expect to get 
engaged in a missile exchange with Russia, and second, defenses 
can be overwhelmed by offensive capabilities which the Russians 
have in terms of innumerable warheads and so on.
    So the interest has shifted to work with the allies. I'd 
add to what the Chairman said, particularly not just our allies 
in Europe but in Japan, as well, which has shown a great deal 
of interest in missile defense vis-a-vis China and North Korea.
    Only time will tell, Senator McCain, whether or not there's 
real possibility here for close cooperation with Russia.
    Senator McCain. Again, I hope that's the case. I've heard 
conversations and we have a new day. I've not seen any concrete 
proposals or significant proposals on the part of the Russians. 
Meanwhile, the Iranians continue inexorably on their path to 
the acquisition of nuclear weapons.
    The one issue I would ask the witnesses, the one issue 
where the Commission was unable to reach a consensus was on the 
CTBT. A few weeks ago during a conference in Rome, former 
Secretary of State George Schultz urged ratification of the 
CTBT. With respect to the 1999 vote in the Senate, Secretary 
Schultz stated that his fellow Republicans may ``have been 
right in voting against it some years ago but they would be 
right voting for it now based on new facts.''
    Secretary Schultz cites the development over the past 
decade of a vast global monitoring system of seismic and other 
technologies dedicated to detecting small and clandestine 
nuclear tests like that of North Korea's small nuclear blast in 
2006. As for the reliability of our nuclear arsenal, Secretary 
Schultz cited the SSP and the DOE Annual Certification as 
additional reasons why CTBT should be ratified.
    I would ask, do you agree with Secretary Schultz's 
assessment on the notion of detection? Do you believe that, in 
light of Secretary Gates' assessment, without testing it will 
``become impossible to keep extending the life of our 
arsenal?'' Do you believe that any ratification of the CTBT 
must be preceded by plans for a new, redesigned and more 
reliable warhead?
    Dr. Perry. In our report we state that it is essential to 
maintain the reliability and security of our warheads for the 
indefinite future. If that requires new designs, then we would 
support new designs. To this date that reliability has been 
achieved without new designs. We do not think we should 
preclude the laboratory from making new designs, if that's what 
is required to maintain.
    On the testing issue, I think it's quite correct that the 
global monitoring system has improved greatly since the day 
that the Senate had the vote on the ratification and can be 
improved more in the future. Nonetheless, I think it would be 
desirable to have some onsite monitoring systems. For example, 
to have an agreement with Russia that there would be onsite 
monitoring systems built in the United States and in Russia to 
give further confidence in that area.
    Senator McCain. Thank you. Dr. Schlesinger.
    Dr. Schlesinger. As Secretary Schultz indicated, the SSP 
has enhanced our ability to sustain confidence in the 
stockpile. It is not total confidence and the laboratory 
directors have testified before the Senate, stating that the 
uncertainties are growing as the force ages, which raises the 
question whether it is wise for the United States to surrender 
the option of testing.
    We are not going to test in the foreseeable future, but to 
retain the option is the question that is open.
    I should point out that the CTBT mechanism for enforcement 
is quite questionable. An Executive Council was established 
with 51 members. It requires a vote of 30 members to 
investigate a presumed violation. The number of Western 
countries on that Council is limited and there is grave 
question about whether or not we could ever get an affirmative 
vote with regard to investigating such a site.
    Senator McCain. I thank you. Senator Glenn, do you have 
anything to add to this, given your long involvement in this 
issue?
    Senator Glenn. Thank you. I wasn't here when we voted on 
that before but I was here when we had a lot of the discussion 
of it before on CTBT.
    In my view, I would like to have the CTBT, but I'd want to 
know what we're agreeing to. I don't think it's adequately 
defined yet. The Soviets or the Russians now define it, their 
interpretation of it, in a different way than we do, and I 
think the value of the CTBT is probably not in my mind as great 
as it was back some 20 years ago or so. At that time we thought 
that any nation to be a valid nuclear weapons nation, had to 
have a test. We didn't know that they were going to be a 
nuclear nation and they didn't know themselves whether their 
technology was good enough to set the bomb off, so they tested.
    Now we know that anybody that has the material can have a 
bomb. The value of CTBT to me is that we retain a leadership 
position in our own psychological thinking and the way the 
world looks at us as being an advocate for peace and for a 
balance and for not going ahead with unbridled weaponry. I 
would favor CTBT, but I would only vote for it if it had better 
definition.
    Right now the Russians do not have an agreement with us, as 
far as I know, on exactly what it is we're agreeing to. They, 
for instance, have said that, as I understand it, they can test 
to smaller levels as long as it's not detectable. To me that's 
like saying it's okay to rob the bank so long as nobody catches 
me and it just doesn't fit right. If we're going to agree to 
this thing and they should agree to it, it becomes an 
international treaty. A treaty is equal on both parties and 
right now the Russians do not see it that way, as I understand 
it.
    I would want better definition of it and then I'd be for it 
because I think I would want to see us keep a leadership 
position in the world's drive toward controlling some of these 
things.
    Senator McCain. Thank you, Mr. Chairman. I thank the 
witnesses.
    Chairman Levin. Thank you. Senator Lieberman is next, and 
I'm going to ask him, and he's more than willing to take the 
gavel, to keep us going and Senator McCain and I can go to the 
Senate Floor. We thank you for your really tremendous 
contribution here.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. Before you go, I 
do want to thank you and Senator McCain for convening this 
hearing so that we can hear from the members of the Commission.
    There's surprisingly little discussion in Congress today of 
America's strategic nuclear posture. There's somewhat more 
discussion about BMD which is obviously related and there is a 
lot of discussion about the Iranian nuclear program. I think 
too often we've not connected those and I'm going to explore 
that a bit with you; that is, we haven't connected our own 
nuclear strategic posture and the set of agreements we've had 
with the threat of the Iranian nuclear program.
    I thank all of you. This is a very important piece of work. 
It's good to see Dr. Perry and Dr. Schlesinger and Senator 
Glenn again. Senator Glenn did really pioneer work in his time 
particularly, I say with pride, on what was then the 
Governmental Affairs Committee as chairman in focusing Congress 
on some of these issues. It's been my honor to succeed him as 
chairman of the committee.
    Dr. Perry, it struck me at one point in your remarks, you 
said that this is the time of peril but hopefulness. You said 
there's a possibility of worries, let's put it that way, that 
the existing nonproliferation regime in the world could 
collapse.
    I took that to be a reference to the consequences of an 
Iranian nuclear program, am I right?
    Dr. Perry. Yes.
    Senator Lieberman. Dr. Schlesinger, you talked about the 
extent to which a smaller but still robust American nuclear 
capacity is a deterrent to proliferation and I took that to 
mean, again particularly with reference to the real case of 
Iran now, that the fact that nations, particularly in the 
Middle East but even beyond but particularly in the Middle 
East, certainly Arab countries, are somewhat discouraged from 
pushing ahead on their own nuclear programs because they know 
that we have ours, should Iran go nuclear. Am I right in that?
    Dr. Schlesinger. It is primarily the impact on our allies 
who are under the nuclear umbrella, and perhaps most notably at 
this occasion, Japan.
    Senator Lieberman. Okay. Even more perhaps than in the 
Middle East?
    Dr. Schlesinger. Unquestionably, the Iranians recognize 
that the United States has immense military capabilities and 
that is going to be a deterrent to any military action on their 
part.
    Senator Lieberman. Right. So I just appreciate your answers 
because it is what I thought I heard you say. When we talk 
about Iran developing a nuclear weapon, we naturally talk about 
the consequences that would have most immediately for our 
allies in the Middle East, Israel and the Arab allies, and 
ourselves. But it would also have, in a larger strategic 
context, a very threatening impact on the existing nuclear 
nonproliferation through the world and that would be a terrible 
consequence.
    Dr. Schlesinger. As Dr. Perry indicated, it may be the 
tipping point.
    Senator Lieberman. It may be the tipping point.
    Dr. Schlesinger. We may have an Iranian nuclear weapon 
before the NPT Review Conference in 2010 that would do 
significant damage to the possibility of making that stronger.
    Senator Lieberman. I appreciate that. I agree totally and 
that's a real concern.
    Let me go the next step on that, Dr. Perry, if you're able 
to share with us what some of the discussions were with the 
Russians, you have very valuable communication access there, 
about what you think they may be willing to do with us now to 
prevent the Iranians from obtaining nuclear capacity.
    Dr. Perry. I look at the history of the negotiations in the 
past, it's been the Russians and the Europeans with the 
Iranians and the Americans on the sideline.
    I think the first step is to get the Americans as a key 
part of the team that's negotiating so that we--and that 
involves developing a common strategy with them. I do not 
believe the Iranians are going to easily give up nuclear 
weaponry.
    Senator Lieberman. I agree.
    Dr. Perry. They see many advantages to having a virtual 
nuclear weapon capability, to be within a few months of 
building a bomb. They're not going to give that up very easily. 
I think it would take coercive diplomacy for that to happen.
    Setting aside the possibility of a military action, the 
coercions are going to have to be economic and the nations in a 
position to apply it--no one nation can apply that economic 
effectively. It has to be Russia and the United States all 
agreeing on it. I think that Iran is highly vulnerable to 
economic pressure, more so than most people realize. As long as 
Russia or China or some other nation is not going along with 
that, then there's an easy way out for it.
    It does require that cooperation and the indication I got 
in my discussions at least was that the Russians, the 
Europeans, and the United States could be on a common strategy 
of that kind of economic pressure. I've not discussed this 
issue with China, but in my judgment, it would require China to 
be agreeable to that, also.
    Senator Lieberman. That makes a lot of sense to me. I 
agree. I think you spoke with real clarity which is that it's 
not going to be easy to convince the Iranians to stop the 
nuclear program. To do so will require not just diplomacy but, 
I liked your adjective, coercive diplomacy, and probably the 
most effective thing we can do is to put very strict severe 
economic sanctions on them or the threat of those.
    For that to be effective, we have to have support and the 
Russians can play a very important part in that, if they will 
cooperate with us. I had somebody say to me, and I think it was 
consistent with what you've just said, I don't want to put 
these words in your mouth, but it relates, which is that 
there's only one thing more important to the Iranian regime 
right now than the development of nuclear weapons and it is the 
survival of the regime. If coercive diplomacy could threaten 
the survival of the regime, then there is a chance that they 
might negotiate to stop their nuclear weapons.
    Dr. Perry. I agree with that.
    Senator Lieberman. Thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I'm going to go back to the CTBT from a little different 
perspective. As Senator McCain said, we had a rather impressive 
vote back in 1999 as to the feelings about the ratification of 
this treaty and I was pretty active in that debate.
    I think the first matter any arms control treaties have to 
address is compliance with its obligations and that it can be 
verified, as Ronald Reagan said, ``Trust, but verify.'' I think 
it was found by the Senate to be lacking in this point and as 
recently as October 2008, Secretary Gates stated, when he made 
his speech to the Carnegie Endowment for International Peace, 
``To be blunt, there's absolutely no way we can maintain a 
credible deterrent and reduce the number of weapons in our 
stockpile without either resorting to testing our stockpile or 
pursuing a modernization program.''
    Dr. Perry, we talked informally before the meeting about 
the fact that perhaps the most important part of the job that 
you had to do was addressing the CTBT. However, you had made 
the statement that it's impossible to have any kind of 
consensus.
    Personally, I'd ask, could you define consensus? Is that a 
majority or is that 100 percent?
    Dr. Perry. We're split about evenly on that.
    Senator Inhofe. Oh, you were? Okay. So if you have 
consensus, you would actually have--by consensus, I meant 
everybody.
    It doesn't mean everybody, it means a majority?
    Dr. Perry. Yes, it means everybody.
    Senator Inhofe. It means 100 percent?
    Dr. Perry. 100 percent.
    Senator Inhofe. The problem with 100 percent is you have 
two problems. As we've mentioned, I use the word ``prima 
donnas'' and I shouldn't have. That has a negative sense. 
Highly-educated proven authorities in these areas which all 12 
were. However, you have that problem, along with the fact that 
there are 12 and to get consensus in 12 people would be a very 
difficult thing.
    Was it pretty well split even in terms of the ratification 
of the CTBT?
    Dr. Perry. Yes, it was.
    Senator Inhofe. Okay. That's interesting to know.
    Dr. Perry. In our report we gave each side the opportunity 
to give their reasons.
    Senator Inhofe. Okay. Let me ask you this. Senator Glenn 
has already made his comments as to his feelings. Would the 
rest of you state whether or not you agree with Secretary 
Gates' statement of October 2008.
    Dr. Cartland, do you pretty much agree with that?
    Dr. Cartland. Yes, I agree.
    Senator Inhofe. Okay. Dr. Perry?
    Dr. Perry. Yes.
    Senator Inhofe. Okay. Now, one other thing that is 
confusing to me because I'm not quite into this as most of the 
rest of them are, when we talk about numbers, we had our 
private meeting, Dr. Schlesinger here, and I appreciate that 
very much. As I understand it now, our number that we're using 
is a range between 1,700 and 2,200.
    Obviously there may be something that's classified that 
would be more specific than that. I won't ask you what that is. 
But it's also my understanding that the Russians are at about 
2,800 now, is that correct?
    Dr. Schlesinger. They exceed the prospective limit. They 
have to come down by 2012.
    Senator Inhofe. Okay. You're anticipating they have to come 
down a little further than we have to come down if we're going 
to come to some unknown figure to me anyway by that time?
    Dr. Schlesinger. The Commission expressed concern about the 
number of tactical nuclear weapons that they have.
    Senator Inhofe. All right. That's good. The second thing 
I'd like to get into is Recommendation 1. The report states 
that the ``force structure should be sized and shaped to meet a 
diverse set of national objectives. This requires a high-level 
assessment of strategic contacts,'' and I agree with that. But 
this is precisely what the Quadrennial Defense Review (QDR) and 
the NPR would be giving you the information that is in your 
Recommendation 1.
    Why is it we can't, since that's starting right now, go 
ahead and proceed or do away with that decision until we have 
the results of the QDR and NPR? I know that you have a deadline 
of the expiration of December 5. I understand that, but I also 
know that there are provisions by which that deadline can be 
extended up to 5 years.
    Is the problem we can't do that mostly that Russia wouldn't 
do it or would you comment as to any way that we could delay 
this until we have the information that will be given to us by 
the NPR and the QDR?
    Dr. Perry. I think the START follow-on either could be 
negotiated by the end of the year or, if there are still issues 
remaining, they could get an extension of the previous START.
    Senator Inhofe. At that time--so if we have information 
that you would have--we would have the benefit of into December 
as a result of our QDR, we might then at that time request an 
extension?
    Dr. Perry. I think that's conceivable.
    Senator Inhofe. Okay. My time's going by fast here and I 
want to get into missile defense.
    When the announcement came out as to Secretary Gates and 
what's going to be the position of the administration, of 
course, I was stressed over a lot of things you were not 
addressing in this meeting, such as the F-22, C-17, the Future 
Combat System, but they do get pretty specific in some of the 
recommendations in terms of our Missile Defense System.
    I know you've already addressed this and I'm going a little 
bit over my time, Mr. Chairman. I'd just like to get your 
feeling about the recommendation on the Czech Republic and 
Poland.
    It would seem to me that that could be pretty well verified 
that that is to preclude a threat that would emanate from Iran. 
Yet, I think those parliaments, and I was there and I was told 
that they were ready to come to the table on that and agree 
that they could have the radar capability in the Czech Republic 
and the capability, the launching capability in Poland, except 
they were waiting to see where this administration was going to 
be.
    That was a disappointment to me, the $1.4 billion cut, and 
I'd just like to have the feeling of the Commission on those 
particular sites, if that was addressed in your report.
    Dr. Perry. We do not address that in our report, Senator 
Inhofe. My own personal view is that if, and it's a big if, we 
can negotiate an agreement for a site based in Russia, it would 
be a more effective site against an Iranian missile.
    If we cannot do that, the sites in Poland and 
Czechoslovakia could be satisfactory.
    Senator Inhofe. I like that answer. Do the other members 
pretty much agree with that answer? All right.
    Thank you, Mr. Chairman.
    Dr. Schlesinger. This is a political issue, Senator Inhofe. 
The Russians do not so much object to missile defense in Europe 
or against Iran. They object to our putting those sites in 
former satellite territory which they regard as provocative.
    Senator Inhofe. I understand that, although I think the 
words that were used were they don't object to doing it against 
rogue nations and, I think we all have our definition of that.
    Thank you, Mr. Chairman.
    Senator Lieberman. Thank you, Senator Inhofe.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman, and I want to 
welcome all of you here and I am honored to be here listening 
to you and I applaud you for the work that you've done on this 
Commission.
    Senator Glenn actually brought this up, talking about the 
use of the fissile material, but what I was concerned was with 
the ongoing nuclear proliferation coupled with the 
accessibility of information on the Internet that could enable 
terrorists with the human capital to construct a nuclear 
weapon, provided that they obtained the required fissile 
material, to include the highly-enriched uranium.
    I'm concerned about the civilian nuclear reactor 
facilities, do they have the capability and the power to 
protect and safeguard the highly-enriched uranium and other 
fissile materials onsite at those locations?
    Could you please provide information on initiatives in 
place aimed to work with our international partners to 
safeguard the fissile materials in the civilian nuclear reactor 
facilities and also perhaps address the security 
vulnerabilities at these sites?
    Dr. Perry. We agree that that's a very serious problem. The 
basic premise is that if a terror group could get their hands 
on enough highly-enriched uranium they could make a bomb and we 
agree with that. We think that's one of the most important 
dangers facing us today.
    Some of the facilities have highly-enriched uranium, not 
all of them, because most of reactors operate on low-enriched 
uranium. The move has been to try to get that highly-enriched 
uranium under safe control and also have these reactors 
converted so they can operate into low-enriched uranium.
    The administration is working on that and we encourage that 
effort to be accelerated.
    Senator Hagan. But are there initiatives in place to secure 
that currently?
    Dr. Perry. There are initiatives in place. We think they 
should be accelerated.
    Senator Hagan. I also was concerned in your opening remarks 
in the written testimony, there was talk about cyber attacks. 
You didn't examine threats related to the cyber attacks, and it 
seems like in any area of the military today that so much of it 
would be involved with.
    Dr. Perry. All of the Commission members would agree that 
cyber attack is potentially very dangerous in the future. We 
did not go into that in enough detail to represent ourselves 
and the Commission has no authority on that subject.
    Senator Hagan. Do you think that's something we should 
begin the process and examine that in great detail?
    Dr. Perry. I strongly agree with that. I see it as a very 
serious potential future problem.
    Senator Hagan. Also on the proposed cuts by Secretary Gates 
involving missile defense affect our capability to counter 
against nuclear threats posed by North Korea and Iran?
    Dr. Perry. I'm sorry. I didn't understand the question.
    Senator Hagan. How do the proposed cuts by Secretary Gates 
involving missile defense affect our capability to counter 
attacks against the nuclear threats posed by North Korea and 
Iran?
    At one point you talked, too, about the number of people 
that had been cut over the years.
    Dr. Perry. I think we do not now have the capability 
against Iran and the question is whether we should continue to 
put resources into the program established a few years ago 
based in the Czech Republic or whether we should move towards a 
program in cooperation with Russia. I think that's an open 
question right now, and I believe that if it turns out to be 
possible to have a joint program with the Russians, that's the 
way I would recommend going.
    Senator Hagan. Dr. Schlesinger, any other comments?
    Dr. Schlesinger. With regard to Iran and North Korea, they 
are not going to be much affected in the short run by anything 
that we do with regard to missile defense.
    Senator Hagan. Thank you, Mr. Chairman.
    Senator Lieberman. Thank you very much, Senator Hagan.
    Senator Sessions.
    Senator Sessions. Thank you.
    Senator Lieberman. The consensus builder.
    Senator Sessions. The issue, the feeling that we had, 
members of the panel, thank you so much for your service, that 
two things were happening.
    One, we were having some divergent ideas about the nuclear 
posture of the United States, but, two, I think there was a 
feeling that Congress had not dealt with this issue in a long 
time. We had not thought about it and the world was going 
forward. There was even some suggestion that the errors in 
Minot were all to some degree part of an ignoring of this whole 
question and putting on the back burner and were such a big 
deal that we needed to get our graybeards--I don't see any 
beards out there, but thoughtful people to help us reach a 
national consensus about where we needed to go.
    I know Senator Bill Nelson, my colleague on the Strategic 
Subcommittee, supported this, as have others, and we thank you 
for your service and the importance of it.
    A number of questions have been raised. I would just like 
to point out a few things I think are themes in this report, 
Mr. Chairman, and make a few comments and also just say how 
much I appreciate, Senator Lieberman, your depth of 
understanding of these issues and commitment to them over the 
years.
    The report, I think, is pretty clear in saying there is a 
need to maintain a nuclear deterrent for an indefinite future. 
In fact, you say nuclear elimination would, ``require a 
fundamental transformation of the world political order.''
    I don't know how many of us have seen those in our lifetime 
but it is not likely, I think, that we'll be in a world where 
we can completely eliminate nuclear weapons. So we have to 
think rationally about what we can do to reduce risk and 
threats.
    Non-material. I think the report indicates the importance 
of extended deterrence to reassure our allies and that that 
should influence heavily our design and size of our nuclear 
forces. If it's going to destabilize our allies and cause them 
to perhaps develop their own nuclear weapon system, then we 
would have the perverse consequence of maybe reducing our 
forces to provide world safety and actually creating a 
proliferation. I think that was reflected to some degree in 
your report.
    Nuclear force reductions, you find, must be done 
bilaterally with Russia and must be based on a rigorous 
analysis of the strategic context and the current balance in 
non-strategic forces is a concern, you find: ``Dealing with 
this imbalance is urgent.''
    Now what I understand that to mean is that while we 
negotiate with Russia to draw down their total nuclear weapons 
and they're doing so but not as much, nearly as much as have, 
they have 3,800 tactical nuclear weapons, we have only five and 
that's not being part of this negotiation or at least we 
haven't dealt with that with clarity. So that is a matter I 
think you've put on our plate that we need to and the 
administration needs to deal with.
    You deal with the question of force modernization pretty 
directly, including the weapons complex, which is necessary, 
you find, to maintain a nuclear deterrent at reduced levels. If 
we're going to reduce the number continually and go further 
than we are today, we need to be sure it's modernized and 
workable.
    Dr. Foster, you've had some experience in that. Maybe you'd 
like to share a thought on that.
    Dr. Foster. I'm sorry, Senator. Would you sharpen the 
question for me, please?
    Senator Sessions. Yes. With regard to the modernization of 
our nuclear weapons, why, based on your experience and 
expertise in these areas, do you think that is a factor we have 
to deal with if we reduce the numbers even further?
    Dr. Foster. As the Secretary has pointed out, we recognize 
that we have a problem trying to maintain the nuclear stockpile 
indefinitely and it would be helpful if the laboratories were 
permitted more freedom to make the necessary adjustments.
    I believe that there is a more serious problem and that has 
to do with the tactical nuclear situation, which Dr. 
Schlesinger has referred to.
    We had the opportunity to listen to comments by a number of 
nations who were represented and presented their views to us, 
in particular their concerns. Those allies that are on the 
periphery of Russia and those allies that are on the periphery 
of China are concerned. They are concerned about whether or not 
the nuclear umbrella will be credible, as they see it, against 
the statements that have been made by potential adversaries.
    Now, in particular, the representatives from one of our 
allies have described in some detail the kind of capabilities 
that they believe the U.S. nuclear umbrella should possess and 
so they have talked about capabilities that can be stealthy and 
they can be transparent and they can be prompt, and then they 
would like capabilities that can penetrate hard targets with 
minimum collateral damage and low yield and so on.
    Now those are not the characteristics that we currently 
deploy, and so the question is whether or not, in discussions 
with our allies, we will be able to accommodate their concerns.
    Now, I believe one cannot answer that question without 
having the laboratories given the freedom to address whether or 
not such capabilities might be provided without nuclear testing 
and with confidence.
    Does that answer the question?
    Senator Sessions. Well said, Dr. Foster. I think it was and 
it just drives home this point of we do need to let our 
laboratories have some freedom to anticipate future 
capabilities and make sure our system is modernized.
    You also support and indicate that BMD supports deterrence 
and damage limitations. You find that the United States should 
deploy missile defenses against regional nuclear aggressors, 
including limited long-range threats, and should ``also develop 
effective capabilities to defend against increasing complex 
missile threats,'' and I'm afraid our budget may be being 
whacked enough there that that may not meet those standards 
that you've asked for.
    We've had a major reduction, more than a lot of people 
realize, in our National Missile Defense Program, but you call 
for it to not only be in place but to be prepared to deal with 
increasingly complex threats and, finally, I would note that 
the United States must take steps to reduce nuclear dangers of 
proliferation and nuclear terrorism, and I believe that this is 
the real danger in the 21st century.
    I would ask just briefly, my time has expired, while it's 
important for us to deal with, Dr. Perry and Dr. Schlesinger, 
the Russians and to negotiate with them and continue to have 
more of a partnership relationship and not an adversarial 
relationship, do you agree that the most likely immediate 
threat to us would be through a rogue nation or nuclear 
terrorism rather than----
    Dr. Perry. I would agree that the most likely threat would 
be from nuclear terrorism. My concern with rogue nations is not 
that they would attack us but that they might let their nuclear 
fissile material or nuclear bombs out of their hands into the 
hands of the terrorists.
    Senator Sessions. Thank you. Dr. Schlesinger.
    Dr. Schlesinger. The likelihood of a terrorist attack is 
the most likely, most probable weapon that will last on 
American soil. As we have discussed, though, it is necessary to 
deal with a much larger set of issues in constructing our 
deterrent. The ability of the nuclear deterrent to deter a 
nuclear terrorist attack is very modest.
    Senator Sessions. Thank you.
    Senator Lieberman. Thank you, Senator Sessions. Thanks for 
your informed leadership on this question which has been unique 
in the Senate in recent years and therefore all the more 
important.
    I think you made a very important point at the end, Dr. 
Schlesinger, and maybe if I get a second round, I can come 
back, which is the extent to which our nuclear deterrent can 
deter nuclear terrorists.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    The potential nuclear threats posed by the vulnerabilities 
in Pakistan's nuclear posture, coupled with the fact that the 
United States doesn't know where all of Pakistan's nuclear 
sites are located, clearly leaves us in a position to no longer 
accept blanket assurances from Pakistan that the weapons are 
safe.
    As a matter of fact, in 2002, in a meeting in Islamabad 
with President Musharraf, I asked him directly the question if 
he was confident that all of the nuclear armaments were under 
satisfactory control and were secure and his answer was that he 
was 95 percent certain.
    So we have every right to be concerned about that, if his 
answer was anywhere near correct. I hope that he was on the low 
side as opposed to the high side.
    In any event, do you have any recommendations to what might 
be the nuclear tipping point caused by the ever-emboldened 
Pakistani insurgency?
    Dr. Perry. Senator Nelson, I believe you are correct in 
saying that's the most serious danger we face today. I'm not in 
the position to make recommendations on how our government 
should deal with that. I know they're serious about the 
problem. I know they're working very hard on it, but I don't 
feel that I'm in a position to recommend what they should do on 
that.
    Senator Ben Nelson. Dr. Schlesinger, do you feel emboldened 
to make a suggestion?
    Dr. Schlesinger. One of the things that the United States 
should be a model on is with respect to protecting nuclear 
weapons. An enterprising journalist from the New York Times 
interviewed after the Minot incident the general officer in 
Pakistan who was in charge of safety of nuclear weapons and the 
New York Times reporter said, ``What help are you getting from 
the Americans?'' to which the general officer responded, ``Who 
the hell are the Americans to give us advice with regard to the 
safety of nuclear weapons? You just took missiles off from 
Minot Air Force Base, flew them down to Barksdale Air Force 
Base, and you didn't know what you were doing, and we are 
supposed to turn to you for advice?''
    We have to be credible if we are to be convincing in 
dealing with countries like Pakistan and the safety issue.
    Senator Ben Nelson. Senator Glenn, perhaps you have some 
thoughts, having spent a great deal of time being concerned 
about these issues.
    Senator Glenn. I was concerned way back when President Zia 
was still President of Pakistan, and I made two trips over 
there when they sat and lied to us about whether they were 
making nuclear weapons or not. We had very good intelligence 
information at that time and they just denied they were making 
any nuclear weapons at all.
    I've been concerned about this for a long time, about what 
might happen if al Qaeda, or other sympathetic groups, came 
into power in Pakistan. The best hope we can have is that I 
hope they are keeping some of the triggers and things like that 
of their nuclear weapons separate and in some spread-out area 
where, if the actual bomb case itself was taken over in a raid 
by al Qaeda or something like that, that they still wouldn't be 
able to use a nuclear weapon as such already constructed.
    The biggest danger to me, I think, that we face right now 
in this whole field is loose fissile material, because making a 
nuclear weapon these days is no problem if you have the fissile 
material. It's fairly simple, and if you have enough of it and 
know what you're doing, which I think they would have the 
expertise to do it, why, they would have weapons to use against 
us.
    That's my concern in Iran, also. I'm not quite as concerned 
as some people are about whether in Iran we should put in 
missile defenses and all for what might be a single shot or 
even a double shot. If they ever develop nuclear weapons or 
boosters to that point, but I am concerned in Iran that maybe 
their control of fissile material might be weak enough that 
some of the al Qaeda sympathetic people in Iran might be able 
to get fissile material, and I think any of our negotiations 
from now on, whether it's START or anything else, should make 
every effort we can to get fissile material control back and 
make that the emphasis.
    Our ability, our controlling this whole thing through the 
last 60 years or so has been pretty doggone good and I don't 
look at the use in World War II, like some people do, that was 
horrible and never should have done it. It saved probably a 
couple million lives. I was in a squad and getting ready to go 
back to Japan at that time for the invasion and we saved lives 
by that. So in that case, I think it was a good use of nuclear 
weapons to end that war.
    But do we ever want to repeat that? No, absolutely not, but 
I think the greatest danger we have now--and the point I'm 
making is that our agreements so far, the treaties now have 
been nation state to nation state and so we do that in the 
international treaties and through the U.N. sanctions and it's 
dealing with nation states.
    Now, our threat is not from nation states, as I see. I 
don't think the likelihood that Russia is going to attack us or 
China is going to attack us. I think there's a major danger, 
though, from fissile material running around from people who 
are not representing nation states. They're representing their 
own interests, their own whatever interests they have, 
terrorism, and if they get fissile material, then we have deep 
trouble, and it's not going to be something that's going to be 
subject to treaties and things like that.
    I think that's the biggest danger we have right now and how 
we control or get a better inventory of all the fissile 
material in the world, that's a big, big challenge, and I think 
we should be concentrating a lot more effort on that than we 
do.
    Senator Ben Nelson. Even if we get the inventory in the 
case in Pakistan, it remains that the government could be 
toppled and these terrorists, these rogue individuals could end 
up with the whole weapon in their hands and perhaps through 
some magic or otherwise they could find the detonating 
capability, as well, and that is a threat.
    Well, thank you very much. Thank you, Mr. Chairman.
    Senator Lieberman. Thank you, Senator Nelson. Interesting 
questions.
    Senator Collins, good morning.
    Senator Collins. Thank you. Good morning.
    First, let me join in welcoming such a distinguished panel 
before our committee today. Senator Glenn, it's always 
wonderful to welcome you back to the Senate. We had the honor 
of serving together on what was then known as the Governmental 
Affairs Committee for many years, and I have such respect for 
all of the members of this panel.
    Dr. Perry, a couple of years ago Max Kampelman came to see 
me and he brought with him the Wall Street Journal op-ed that 
you, George Shultz, Henry Kissinger, and Sam Nunn authored and 
it's called ``A World Free of Nuclear Weapons,'' and I must 
say, as I talked with Mr. Kampelman and read this op-ed, it put 
forth an inspiring vision, one that I think all of us wish 
could come about today.
    When I looked through your report, it seems to reach a 
different conclusion. Rather than reflecting a plan to go 
forward to achieve the goal outlined in this op-ed, it says 
that we need to maintain a reliance on nuclear weapons as a 
deterrent.
    So I wonder if you could talk about the two different 
visions presented in this op-ed 2 years ago and in your report 
today. Second, I would be interested in knowing whether the 
increasing threat from Iran and the North Koreans has altered 
your view.
    Dr. Perry. Thank you, Senator Collins.
    My colleague and your colleague, Sam Nunn, has described 
this vision in the Wall Street Journal article, in which Max 
Kampelman was describing as being like the top of a mountain 
and he says we cannot see the top of the mountain today but we 
should be moving in that direction. He argues that the 
immediate goal should be establishing a base camp much higher 
up the mountain than we are now and at that base camp we should 
be able to see the top of the mountain and therefore we can 
plan the final ascent. That base camp has to be safer than we 
are today, and it has to be stable enough that if we have to 
stay there for a few years, we can do that.
    Our immediate goal is moving up the mountain, and I think 
this report is consistent with moving up the mountain. It makes 
recommendations for positions which make us safer than we are 
today which reduces our nuclear weapons and which deals more 
specifically with the most immediate dangers which are 
proliferation dangers, the dangers of nuclear terrorism.
    This report is dealing more with the near future and 
through the Wall Street Journal op-ed it can be described as a 
strategy for getting to the base camp, not as a strategy for 
getting to the top of the mountain.
    Both Sam Nunn and I have said publicly that this vision, 
which we call the top of the mountain, is a vision where we 
cannot even see the top of the mountains now, and that's what 
we mean when we say it's going to require a change in the 
geopolitical situation to do that. But we also believe, and I 
want to make very clear on this point, that this vision helps 
us get up to the base camp. Without that vision, we feel we're 
going to slip farther down the mountain.
    We need the support of nations all over the world to do 
that. In more practical terms, other nations of the world want 
to see we're serious about maintaining our commitment under the 
NPT, of moving towards disarmament.
    Senator Collins. Thank you. Dr. Schlesinger, the 
Commission, as I indicated, calls for a continued reliance on 
nuclear weapons as a deterrent. Nevertheless, and I do accept 
that conclusion, should steps be taken to change or reduce the 
danger of an accidental or unauthorized use of a nuclear 
weapon?
    I'm talking about the debate of the deployment, the 
targeting, the hair trigger debate that we've had. Could we and 
should we be taking steps to help lower tensions by still 
having that deterrent but perhaps moving back?
    Dr. Schlesinger. The question has been raised about so-
called hair trigger alert and we speak to that at some length 
in the Commission report.
    The hair trigger alert problem, I think, is, as we say in 
the report, substantially exaggerated in that on both sides, 
there are very careful controls, including electronic controls, 
coming from the President of the United States or the President 
of Russia, to prevent the launch of a weapon.
    Our concern, following this, is that there be enough 
decision time for the President of the United States, and I 
think particularly the President of Russia, to examine the 
evidence before he hypothetically responds, and lengthening 
that decision time will be helpful. Negotiations with the 
Russians will, I think, help with regard to the decision time 
issue, but the question with respect to hair trigger alert is 
really a question of the past with regard to both U.S. and 
Russian forces and thus Chinese forces, as well.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Senator Lieberman. Thanks very much, Senator Collins.
    Senator Udall, welcome back.
    Senator Udall. Thank you, Mr. Chairman.
    I wanted to welcome the panel. It's truly an honor to be 
able to sit here today and soak up the accumulated wisdom and 
experience at this table before us. I am a casual mountain 
climber myself, Secretary Perry. So I find your climbing 
analogies apt.
    I wonder what Senator Glenn would utilize, given his 
experience as a fighter pilot and an astronaut, as the base 
camp that we need to reach. I don't know if it would be a space 
station, Senator Glenn, or whether it's a forward operating 
base, in Marine parlance, but I really appreciate you all and 
the work you've done.
    If I might, Secretary Perry, I'd turn a question to you but 
I'd invite the entire panel to comment.
    I'm interested in delivery systems, specifically the land-
based leg of the Triad or ICBMs, and do you have any views on 
retaining our current number, which total about 450, or 
reducing those ICBMs as part of an overall arms agreement?
    Dr. Perry. In our report we have argued the desirability of 
maintaining the Triad, even if we reduce the overall number of 
weapon systems. We think that the Triad is the way to configure 
those. We would argue for continuing to maintain the land-based 
ICBMs for the particular advantages that they bring to 
deterrence, but we could also be open to seeing that number 
reduced if it's done bilaterally with the Russians.
    Senator Udall. Dr. Schlesinger, do you have a comment?
    Dr. Schlesinger. I think Dr. Perry's covered the point. As 
we come down from the 2,200 level, unavoidably it will have an 
impact on our missile posture. So some of the ICBMs will be 
reduced. Some of our sea-based forces will be reduced as we 
come down.
    One of the things that I hope that the Senate watches, and 
we recommend the revival of the Arms Control Observer Group 
that the Senate has had in the past, needs to watch what is the 
impact of the reduction in force on the specifics of the 
composition of our forces and does this weaken our overall 
deterrence, including extended deterrence?
    Senator Udall. So in effect, you're saying keep the three 
legs of the Triad and they may be adjusted but you need all 
three legs and they're interactive, if you will. They 
complement each other.
    Dr. Schlesinger. That was the belief of the Commission. It 
is not a universal belief.
    Senator Udall. Other panelists would like to comment on 
that particular question? Dr. Cartland?
    Dr. Cartland. No. I agree. I obviously support that 
position myself, at least with regards to any near-term 
reductions that might be done in the stockpile.
    Unfortunately, at some point dollars do matter, and at some 
point in the future we may have to reconsider this issue again, 
whether it makes sense to maintain three legs of the Triad.
    Senator Udall. Senator Glenn.
    Senator Glenn. I think what you want to do in trying to 
discourage any potential aggressor that might be wishing us 
ill, you want to keep them guessing as to what the response may 
be if they do something dumb and attack us. You have the 
greatest flexibility there if you have the whole Triad, and 
that way they can't just defend against submarines, they can't 
just defend against the ICBM, or just defend against whatever.
    The Triad is the very thing that gives them the most doubt. 
It's the most ambiguous thing you can do to keep them guessing 
and make them less confident in any attack they might consider 
on us. So I favor, at least for now, until we can maybe some 
time in this nirvana we're talking about in the future, work 
our forces down and everybody else works their forces down, 
that's the time when to consider this but certainly not now.
    Dr. Perry. The one point we should keep in mind, if I might 
add, is the impact of the Triad in the Cold War, where the 
Russians spent an excessive amount, in our judgment, on air 
defense, and they would not have been spending that money on 
air defense if we did not have the bomber force; if they had 
not been spending it on air defense, they would have been 
spending it on offensive forces that might have been a greater 
worry to us.
    Senator Udall. Dr. Foster, did you want to comment, as 
well?
    Before I move to a question in the broader sense, Nunn-
Lugar and working further with the Russians, I just want to 
take a minute, Dr. Schlesinger, to commend you for the work you 
did on the Rudman-Hart Commission and the prescience that the 
Commission showed. I think the fundamental recommendations that 
you have about investing in our country, whether it's in the 
public health system or in a new energy policy and a 
transformed military, I think the conclusions in that important 
seminal document are still very, very applicable to this day. I 
use the wisdom that was put forth in that document on the stump 
in campaigns and in policy settings and I want to just take a 
minute to thank you for that.
    Dr. Schlesinger. Thank you, Senator.
    Senator Udall. I think it's a document that will live a 
long time and the template's clear where we need to invest to 
keep our country strong.
    If I could, I'd like to throw to the panel, and I see my 
time's expired, but perhaps a brief comment from one or two of 
the panelists, some thoughts on why we haven't been able to 
make, I think, all the strides we could under the umbrella of 
Nunn-Lugar.
    Is it the intransigence of the Russians in some cases? Is 
it clumsiness on our part? Would anybody care to comment 
briefly on that?
    Dr. Perry. First of all, I think we've made considerable 
progress on Nunn-Lugar. During the period I was Secretary of 
Defense we dismantled 4,000 nuclear weapons which we could not 
have done without the Nunn-Lugar program.
    Senator Udall. I stand corrected, Mr. Secretary.
    Dr. Perry. The program continues to this day. I cannot give 
you an authoritative current account of what's going on, but I 
know the program still continues. I think it's been 
indispensable, though certainly in my role as Secretary of 
Defense, it was indispensable. Beyond the dismantlement, it 
provided the safety of many of the facilities in Russia. I 
think the world is far safer today because of what the Nunn-
Lugar program has done.
    Dr. Schlesinger. I think that DOE is quite satisfied with 
the achievements in terms of providing security for Soviet 
nuclear weapons which did not exist in the past. They are less 
than satisfied with regard to fissile material, but this is an 
ongoing process and Nunn-Lugar has been an immense success, 
even though sometimes we get into squabbles with the Russians 
with regard to security issues.
    Senator Udall. Thanks again to the panel.
    Senator Lieberman. Thank you, Senator Udall. Thanks for 
your interest and good questions.
    If the panel is prepared, I think Senator Sessions and I 
would like to do one more round.
    Let me go back to a question underneath what we've been 
discussing and you alluded to it in your answer about the 
nuclear terrorists, which is the question of whether, in the 
context of the most serious challenges we face today from 
terrorists, from Iran, and now control, the great country 
controlled by an extremist Islamist regime, does our nuclear 
strength actually deter?
    In other words, as you all know better than I, during the 
Cold War we reached a point with the Soviet leadership where it 
was pretty clear that they were not going to die from Marxist-
Leninist principles. Maybe they reached the point where they 
stopped believing them as a matter of fact, but, unfortunately, 
it's painfully clear post-September 11 that the Islamist 
terrorists are prepared to die, in fact they yearn for it. 
Perhaps it's not as clear with regard to the leadership of a 
country like Iran, although you can find statements from top 
leaders that seem to be prepared to accept the large loss of 
life in the interest of the greater cause.
    Do nuclear weapons still deter? I know that you've thought 
about that and I invite it.
    Dr. Schlesinger. I think, unquestionably, our overall 
military capability, including nuclear, is a substantial 
deterrent to other nation states, including Iran.
    Senator Lieberman. Okay.
    Dr. Schlesinger. Ayatollah Khameni is not about to see the 
end of Iran or Shiism in order to fulfill the wilder comments 
of President Ahmadinejad.
    Senator Lieberman. Right.
    Dr. Schlesinger. So with regard to nation states, we do 
quite well, I think, on deterrence, not as well as with the 
Soviet Union in which their belief was that history was on 
their side.
    Senator Lieberman. Right.
    Dr. Schlesinger. It was an erroneous belief, but they 
believed it at the time.
    With regard to the issue of terrorists, if they get ahold 
of nuclear weapons, it is plain that our forces are not much of 
a deterrent.
    What we have to hope is that any nation such as Iran or 
North Korea will be deterred from turning over weapons or 
fissile materials to terrorist groups. That is a much more 
limited deterrent.
    Senator Lieberman. Dr. Perry, do you have a thought on 
that?
    Dr. Perry. I would say the same thing that Dr. Schlesinger 
said.
    Senator Lieberman. Okay. Anyone else want to get into that?
    It does strike me that, to some extent, now this won't work 
with a nuclear--well, one reaction to the nuclear terrorism and 
this goes back to the Hart-Rudman report, is that the best 
defense to nuclear terrorism is homeland security, a robust 
homeland security. I don't want to dwell on that.
    Another defense, which perhaps rises to some extent against 
a country that has leadership that's perhaps less rationale, is 
a robust BMD, so that at least they know that the prospects of 
succeeding are reduced by that defense.
    I want to bounce an idea off of that somebody put to me the 
other day and in some sense it's kind of an inside Congress/
inside Washington grand bargain. I must say there are parts of 
the basis of the bargain that are suggested in some of the 
conclusions or our inability to include in the report.
    I'm speaking specifically of the CTBT where you had a 
disagreement. I would say about your BMD sections, I don't mean 
any disrespect, but they're more summary than some of the other 
sections.
    This is what one of the think tankers in town said--who 
happens, to disclose all the cards, both for the CTBT and a 
very robust BMD, and he observes that, I'm overstating the case 
here, but that there's a lot of support on the left in American 
politics here in Washington for the CTBT. There's less support 
on the left for BMD, reluctant or limited.
    On the right, there's a lot of support for the robust BMD 
but many more questions about the CTBT. So he raises the 
suggestion about whether there ought to be an inside Washington 
brand where we agree to support both CTBT and a BMD which in 
this case would involve restoring some of the funds that the 
President's budget will apparently cut from the Missile Defense 
Agency.
    Insofar as you care as individuals to respond to such a 
thought, I would welcome it. Anybody so bold?
    Dr. Schlesinger. It's inside Washington, inside political 
Washington.
    Senator Lieberman. Yes.
    Dr. Schlesinger. We're going to leave it to Congress to 
work out those kinds of things.
    Senator Lieberman. Very wise.
    Dr. Schlesinger. I might throw in that, in addition to BMD, 
we are concerned about the funding of the laboratories and that 
would have to be part of it.
    Senator Lieberman. That's good. That's my last question.
    Dr. Perry. On CTBT, my support of it is contingent on 
safeguards and the most important of those safeguards is robust 
support on the laboratories. That is what gives us our main 
confidence.
    Senator Lieberman. Okay. That's very interesting. I have a 
final question. It seems to me as I read the report, which is 
an excellent piece of work, that the most comprehensive set of 
recommendations is not with regard to the sort of flash 
button--flashier public issues, CTBT, START, BMD. It's about 
the NNSA, but I think you make a very compelling argument, 
including the suggestion of some potential legislative action 
that might make NNSA a separate agency reporting to the 
President through the Secretary of Energy as opposed to being 
just within DOE.
    Do you want to add anything to that, any sort of flesh to 
what we've said about this part of your report, because 
ultimately it may be what is really most important in the short 
term?
    Dr. Schlesinger. We recognize that NNSA, as designed by 
Congress and hopefully designed by Congress in 1999, has been a 
failure and it's been a failure because of the intrusion of 
other elements of DOE, so that the laboratories and the plants 
have to get triple approval of anything that they want to 
achieve.
    Senator Lieberman. Yes.
    Dr. Schlesinger. We have models like the Agency for 
International Development and previously the Arms Control and 
Disarmament Agency in the Department of State which were 
separate.
    Senator Lieberman. Right.
    Dr. Schlesinger. Within the DOE, we have the Federal Energy 
Regulatory Commission (FERC) which is independent. We also have 
the Energy Information Administration (EIA) which is 
independent.
    Senator Lieberman. Right.
    Dr. Schlesinger. It does not necessarily, in the case of 
the EIA, even have to have the approval of the Secretary of 
Energy, but those are models in which the ability of, say, the 
General Counsel's Office or the Environmental Health and Safety 
Group in the DOE cannot come down on the laboratories with 
additional requirements and, indeed, we have had in the various 
departments these kinds of arrangements.
    FERC is not the best example simply because it's a 
regulatory body and therefore separate from the DOE Secretary.
    Senator Lieberman. The fact is that, as Senator Glenn well 
remembers, that creation of NNSA in 1999 came not so much out 
of concern for the scientific and engineering base as it was a 
reaction to the Wen Ho Lee case, the scandal, the concern about 
Chinese interruption or espionage really.
    You make a very strong point and almost regardless of what 
side you're on in any of these issues, I suppose unless you're 
for total nuclear disarmament, this makes a lot of sense and I 
appreciate it very much.
    Senator Sessions.
    Senator Sessions. Dr. Schlesinger, I remember you making a 
comment once, not too long ago, that when Americans make 
declarations of policy and set goals, by nature we tend to want 
to achieve them and that the Europeans are used to living with 
more ambiguity and internal contradictions than the United 
States is. You deal with some of those issues, I think, in 
Chapter 4, the Declarations of Policy.
    Would you express to us the hesitance of the Commission in 
not explicitly adopting a goal of a total elimination of 
nuclear weapons?
    Dr. Schlesinger. I think that Secretary Perry may have some 
comments after I'm through. If we look back to the old days, 
the United States regarded nuclear weapons as this great 
equalizer in dealing with a possible Soviet Warsaw Pact 
conventional attack on Western Europe. Other nations think in 
terms of great equalizers, including Iran, that the Chairman 
has mentioned, and when one thinks about these other nations, 
what incentive do they have to give up nuclear weapons?
    The United States now has conventional superiority and as a 
consequence of our conventional superiority, we are quite 
comfortable with a world without nuclear weapons, if we could 
get there, but for the other nations that have nuclear weapons, 
Pakistan, India; Pakistan looking across perhaps excessively at 
now the conventional superiority of India. The North Koreans, 
their only stake in this world is their nuclear capability 
which they have exploited politically with great effectiveness. 
The Russians today, as mentioned in the report, moved towards 
an emphasis on tactical nuclear weapons.
    It is not clear which countries we could persuade to give 
up nuclear weapons. Undoubtedly, the British would be prepared 
to do so. Perhaps the Chinese, but to find the incentives that 
will persuade all nuclear powers today and possibly in the 
future to abandon nuclear weapons is, I think, an uphill fight.
    Bill, you may want to develop on that.
    Dr. Perry. I do not disagree with what Dr. Schlesinger 
said. It is really an uphill fight.
    I would also point out that during the Cold War, the 
nuclear weapons protected our security in very important ways. 
Now with the ending of the Cold War, we see India getting 
nuclear weapons and Pakistan getting nuclear weapons.
    Pakistan selling their technology to other countries 
through A.Q. Khan Network, Iran on the verge of nuclear 
weapons, and where Iran goes, we see Syria, Egypt, Saudi Arabia 
wanting nuclear weapons.
    Then in the face of all of this proliferation, we now have 
terrorist groups emerging whose professed goal is to kill large 
numbers of American civilians. Now we see nuclear weapons today 
as a danger. If they could be eliminated, the world would be 
better.
    I agree with Dr. Schlesinger. I don't see a way to do that 
today, but that should not stop us from trying to work towards 
that goal.
    Senator Sessions. One question, I'll ask if any of you 
would like to comment on it. The Commission dealt with an issue 
that we hear about periodically, I don't think from the 
administration, but we hear sometimes raised that we should 
renounce first-use capability or policy.
    You conclude in Chapter 4, the United States ``should not 
abandon calculated ambiguity by adopting a policy of no first 
use.''
    Would any of you like to comment on that conclusion?
    Dr. Perry. Besides the danger of nuclear weapons, there's 
also a danger of biological weapons. We have renounced 
biological weapons. There's a danger that biological weapons 
might be used against us and we believe we should use 
deterrence of biological weapons that are used against us with 
the threat of nuclear retaliation. We do not have the ability 
to threaten biological retaliation nor would we want to. We do 
not want to abandon it for that reason.
    Dr. Schlesinger. I think, Senator Sessions, that the United 
States is not going to use nuclear weapons against others, save 
in extraordinary conditions. The ambiguity to which you refer 
deals not with a nuclear attack on the United States but with 
other types of attacks.
    For example, the possibility--I stress the possibility--of 
electromagnetic pulse attack, cyber warfare. There is no 
defense against a sophisticated cyber warfare attack and the 
Russians and the Chinese and perhaps others have developed 
cyber offensive capabilities.
    We may need to use a nuclear response to such things. 
Biological warfare. The retention of ambiguity there is not to 
suggest that we are going to use weapons initially. We are 
prepared not to do so, but that we might have to respond to a 
non-nuclear attack with the use of nuclear weapons if it is 
severe enough.
    Senator Sessions. Mr. Chairman, thank you, and let me thank 
the panel for helping all of us in Congress and I thank the 
American people to think through very challenging issues and to 
get our heads straight as we go forward because there are some 
actions that Congress needs to take and they will reflect some 
of the policies and suggestions you've made.
    Thank you.
    Senator Lieberman. Thank you again, Senator Sessions.
    Senator Udall.
    Senator Udall. I want to thank the panel again and commend 
you for creating what I think I could characterize as a 
realistically idealistic approach to a world without nuclear 
weapons. We have a long ways to go.
    Thank you.
    Senator Sessions. I like that phrase. Realistically 
idealistic. I think that's good. Thank you.
    Senator Lieberman. The first time either Senator Sessions 
or I use that phrase, we'll give you credit. After that, it 
will be ours. [Laughter.]
    I want to join in thanking the panel and all members of the 
Commission for what you've done. This has been a very 
thoughtful and, I'd say, informative exchange we've had this 
morning. I hope that some folks may be watching on television.
    We have some significant decisions to make. We've had a 
change of administrations obviously. There's going to be a 
renewed focus on START and CTBT and, of course, ongoing 
discussions about BMD. So you've really given us a primer here, 
all Members of Congress and the public, to get us ready for 
these discussions, and I appreciate it very, very much.
    Almost all the members of the Commission, this is just the 
latest chapter in a long story of public service by all of you.
    Dr. Perry. If I may make a final comment?
    Senator Lieberman. Please.
    Dr. Perry. When Congress asked me to undertake this as 
Chairman, I requested that the U.S. Institute of Peace (USIP) 
be selected as the administrator of the program and that has 
happened.
    I just want to acknowledge the very great support I 
received from them.
    Senator Lieberman. I appreciate your doing that and they 
deserve our thanks, as well.
    Dr. Schlesinger. May I interrupt there?
    Senator Lieberman. Please, yes.
    Dr. Schlesinger. The Institute for Defense Analyses (IDA) 
has also cooperated with USIP in providing security for us and 
providing considerable editorial assistance to USIP. So IDA 
should also be thanked.
    Senator Lieberman. Good. We join you in thanking them.
    Any other members of the panel want to make a final 
statement?
    It's the custom here, well, it's the reality, that 
nongovernmental witnesses, which you're now in that glorious 
status, are not required to respond to questions for the 
record. If you're willing, I'd like to keep the record open 
until next Tuesday for questions from any members, particularly 
those who were not here, and we'll give you plenty of time to 
answer them in writing. Is that acceptable?
    Dr. Perry. Yes.
    Dr. Schlesinger. Thank you.
    Senator Lieberman. All right. I appreciate it very much.
    I thank my colleagues. I thank all of you. The hearing is 
adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                    joint u.s.-russia early warning
    1. Senator Levin. Dr. Schlesinger, one of the elements in the joint 
U.S.-Russian initiative is a recommended effort to increase decision 
time for the Russian President or the U.S. President before launching a 
retaliatory launch. One of the steps that the Commission recommends 
taking is to revive the crisis hot line. What is the status of the hot 
line?
    Dr. Schlesinger. The Direct Communications Link (DCL) (``hot 
line'') was established in 1963 in the aftermath of the Cuban missile 
crisis to help resolve misunderstandings and thereby help avert the 
outbreak of nuclear war. It has operated continuously on a 24/7 basis 
for over 45 years and has been upgraded several times since 1963. We 
understand that there are several further upgrades being considered now 
for the DCL that would expand and strengthen its capabilities to ensure 
continuous service and broaden the kinds of services that can be 
provided to our leaders. We support improvements to this vitally 
important capability.

    2. Senator Levin. Dr. Schlesinger, a second recommendation is to 
establish a joint early warning center. There was a previous effort 
that failed. What steps should be taken this time to ensure a center is 
successful?
    Dr. Schlesinger. In June 2000, Presidents Clinton and Putin signed 
a Memorandum of Understanding to create a Joint Data Exchange Center in 
Moscow to provide for advance notifications of launchings of spacecraft 
and ballistic missiles. As we understand it, implementation of that 
agreement became embroiled in a larger dispute about tax and liability 
issues for U.S. funded projects in Russia. More recently, continuing 
disagreements over U.S. planned deployment of ballistic missile defense 
components in Poland and the Czech Republic have also complicated 
moving forward. We believe that as part of the process of ``resetting'' 
U.S.-Russian relations the United States should make renewed efforts to 
implement the 2000 agreement.

    3. Senator Levin. Dr. Perry and Dr. Schlesinger, much has been 
written about the concept of dealerting--removing the U.S. and Russian 
Intercontinental Ballistic Missiles (ICBMs) from ``hair trigger 
alert.'' The report is pretty clear that the Commission believes that 
this is an ``erroneous characterization of the issue.'' Could you 
explain this conclusion and why efforts to insert physical effects or 
changes to ICBMs, to achieve additional decision time, are not 
recommended?
    Dr. Perry and Dr. Schlesinger. The term ``hair trigger'' suggests 
to many the possibility of accidental or unauthorized launch. We 
believe this concern to be unfounded. As our report notes, ``The alert 
postures of both countries are in fact highly stable. They are subject 
to multiple layers of control, ensuring clear civilian and indeed 
presidential decisionmaking.'' We note that ICBMs in the United States 
have been on alert for almost half a century with no suggestion that 
accidental or unauthorized launch has been a risk. Instead, once again 
quoting our report, we believe that the real risk is ``the possibility 
that the president of Russia [or, less likely, the U.S. President] 
might authorize a launch as a result of a decision made in haste that 
is deliberate but mistaken. The best approach to this problem has been 
and remains to improve Russian warning systems. . . .''
    Inserting changes in ICBMs that delay implementation of an 
authorized launch would not increase decision time available to either 
president. Instead, by shortening the window during which ICBMs could 
escape destruction such changes would put additional pressure for rapid 
decision, especially in Russia, which is more dependent on ICBMs than 
is the United States. While increasing decision time is valuable, until 
we can devise an effective method for doing so, improving Russian 
warning systems to avoid bad decisions remains the best approach to 
reducing the chance of launch through miscalculation. We note that the 
DCL would play an important role during the decisionmaking process.

                national nuclear security administration
    4. Senator Levin. Dr. Perry and Dr. Schlesinger, among the 
recommendations made by the Commission are changes to the 
organizational structure of the National Nuclear Security 
Administration (NNSA). One of these is to have the Nuclear Regulatory 
Commission (NRC) regulate the weapons complex, including the 
laboratories. Did the Commission members discuss this recommendation 
with the NRC and the Defense Nuclear Facilities Safety Board (DNFSB)?
    Dr. Perry and Dr. Schlesinger. No, it did not.

    5. Senator Levin. Dr. Perry and Dr. Schlesinger, do either of you 
have an assessment of the cost to the NNSA and the delay in new 
construction a shift to the NRC would entail?
    Dr. Perry and Dr. Schlesinger. We have no assessment of cost, 
although we do not believe it would be high. Indeed, some of the 
experts the Commission consulted believe that the total operations 
costs for NNSA would probably decrease over time with NRC oversight. 
The NRC must define their requirements in a public arena, and must 
measure site performance against those requirements. One of the major 
problems with existing NNSA oversight is that firm requirements are not 
defined. Therefore, over time, sites operations are ratcheted up in the 
level of controls and associated costs.
    Our proposal was not intended to require a delay in construction of 
any presently planned facilities. The 3-year transition period the 
Commission recommends would allow working out of arrangements for 
regulation of existing facilities. We would include those facilities 
previously approved for construction in this process. In the 1990s 
Congress provided a similar period for the United States Enrichment 
Corporation (USEC) to come into compliance with Occupational Safety and 
Health Administration (OSHA) requirements when the Energy Policy Act of 
1992 required Department of Energy (DOE) to lease the gaseous diffusion 
plants to USEC.

    6. Senator Levin. Dr. Perry and Dr. Schlesinger, does the 
regulatory approach of the NRC, which is strict compliance, match the 
needs of the weapons complex?
    Dr. Perry and Dr. Schlesinger. We believe that it does. Having a 
civil regulator regulate weapons facilities has been effective in the 
United Kingdom. Navy fuel production facilities are presently operating 
satisfactorily under NRC regulation. ``Strict compliance'' is, in 
theory, the current DOE standard, so the shift should be manageable.

    7. Senator Levin. Dr. Perry and Dr. Schlesinger, nuclear safety 
oversight is currently provided by the DNFSB, a small, 100-plus-person, 
oversight body that makes recommendations to DOE and the NNSA, to 
ensure the DOE and the NNSA are following their own safety orders and 
procedures. The DNFSB does not have regulatory authority or shutdown 
authority as does the NRC. Did you look at changing the nature of the 
DNFSB to a regulatory body rather than assigning the task to the NRC?
    Dr. Perry and Dr. Schlesinger. The Commission did not consider this 
option. Rather, our proposal would permit external regulation by the 
DNFSB rather than the NRC as the single regulator. The Commission's 
concern is with multiple levels of regulation. Under the current 
system, NNSA provides oversight of contractor facilities. DOE provides 
oversight of that oversight, in practice if not in theory. The DNFSB 
similarly provides oversight. We believe that regulation by a single 
entity is preferable to the current system and will allow clarification 
of roles and responsibilities, reduction in the overall regulatory 
burden and no diminution of the safety of nuclear operations. Whether 
the DNFSB or the NRC should be that regulator requires additional 
analysis. There are several factors to consider. The DNFSB has 
specialized knowledge the NRC does not possess. The NRC has broader 
experience, perhaps more standardized rules, and an independent 
viewpoint developed over the years. The experience and viewpoints of 
the DNFSB have been developed around the much-criticized (risk averse, 
uncoordinated) DOE rules. It would be important to evaluate not only 
which entity has the most detailed immediate expertise, but also which 
one could best meet the objectives the Commission set forth. The 
Commission did not perform such an evaluation.

    8. Senator Levin. Dr. Perry and Dr. Schlesinger, the DNFSB is 
intimately familiar with all of the operational nuclear safety issues 
and there are many in the complex. How will the NRC improve operational 
nuclear safety in older unlicensed facilities?
    Dr. Perry and Dr. Schlesinger. The Commission proposal is not based 
on improving operational nuclear safety but on providing equivalent 
safety in a more effective manner. It is our judgment that NRC 
oversight would accomplish this.

    9. Senator Levin. Dr. Perry and Dr. Schlesinger, would design and 
construction on new facilities, such as the uranium processing facility 
at the Oak Ridge Site in Tennessee and the chemical and metallurgical 
facility at the Los Alamos National Laboratory have to stop to allow 
the NRC to develop standards and a licensing process for the 
facilities?
    Dr. Perry and Dr. Schlesinger. Not under the Commission's proposal. 
Our proposal is not intended to require a delay in construction of any 
presently planned facilities.

    10. Senator Levin. Dr. Perry and Dr. Schlesinger, the report 
appears to conclude that there is too much oversight of the operating 
contractors by the NNSA and that the contractors should be told what 
work is expected of them by the NNSA and then the NNSA should get out 
of the way, letting the contractors implement the direction. This 
approach to contract management appears to be contradictory to every 
lesson that the Department of Defense (DOD) has learned in the last 
decade. Would this approach still produce clear requirements, full and 
complete cost estimates, comprehensive schedules, and clearly 
understood milestones?
    Dr. Perry and Dr. Schlesinger. There is every reason to believe 
this recommended management approach should safely enhance NNSA safety, 
effectiveness, and efficiencies, especially for the production 
facilities. ``Clear requirements, full and complete cost estimates, 
comprehensive schedules, and clearly understood milestones,'' are an 
inherent part of specifying what is to be done. We note, however, that 
scientific projects--as opposed to construction--at the national 
laboratories are inherently less subject to binding schedules. A good 
DOD analogue might be operation of shipyards. The government 
establishes requirements and holds the contractor responsible for 
meeting those requirements. However, it does not prescribe internal 
operating procedures. This is the distinction between what to do (a 
government function) and how to operate (a contractor responsibility) 
that we seek to reestablish within NNSA.
    Our report provides an illustration of why we believe this approach 
will succeed. In 2006 and 2007, NNSA conducted a pilot program 
exempting the Kansas City Plant from essentially all DOE regulations 
and making other management changes in oversight. An external audit 
documented $24 million in first year savings, about 5 percent of the 
Kansas City annual budget. No problems with schedules or milestones 
were noted.
    We note that the traditional government-owned, contractor-operated 
approach to the national laboratories has been a great success in 
fostering world-class science and technology. Excessive regulation and 
micro-management threatens the continuation of this success. Our 
proposal for OSHA and NRC regulation is intended to avoid this threat 
while addressing past operational concerns and ensuring future safety.
                                 ______
                                 
               Questions Submitted by Senator John Thune
     post-strategic arms reduction treaty arms control negotiations
    11. Senator Thune. Dr. Perry and Dr. Schlesinger, on April 6, 2009, 
Secretary Gates announced a series of major budget decisions aimed 
toward reshaping the priorities of the America's defense establishment, 
and which would profoundly reform how DOD does business. With regard to 
U.S. nuclear and strategic posture, Secretary Gates said, ``We will 
examine all of our strategic requirements during the Quadrennial 
Defense Review (QDR), the Nuclear Posture Review (NPR), and in light of 
post-Strategic Arms Reduction Treaty (START) arms control 
negotiations.'' Of particular interest to me is that it appears that 
Secretary Gates is proposing to suspend development of the Next 
Generation Bomber until a new START is negotiated. The current START is 
set to expire on December 5 of this year. To me, this proposal to delay 
development of the Next Generation Bomber until post-START arms control 
talks are completed appears problematic. Waiting until a new START is 
negotiated could literally take years. In fact, the lead START 
negotiator at the State Department has already indicated that the 
negotiations for a follow-on START could last beyond December 5, 2009. 
Secretary Gates himself also voiced concerns during a speech last fall 
at the Carnegie Endowment for International Peace about how long it 
might take to negotiate a follow-on START. With regard to post-START 
arms control negotiations, is it realistic to expect that a follow-on 
START will be negotiated by December 5, 2009, when the current START 
expires, particularly when the lead START negotiator for the United 
States is already lowering expectations on that front?
    Dr. Perry and Dr. Schlesinger. We believe it is possible, although 
unlikely, that negotiations will be completed by December 2009. Whether 
they conclude by then will depend heavily on the attitude of the 
Russian Federation. We believe it is unlikely that negotiations will be 
completed in time to allow ratification and entry into force of the new 
treaty before December 2009; therefore, some interim arrangements may 
be required.

    12. Senator Thune. Dr. Perry and Dr. Schlesinger, in your view, 
when do you believe a follow-on START could be successfully concluded? 
A year from now? Longer?
    Dr. Perry and Dr. Schlesinger. Assuming a reasonable attitude on 
the part of the Russian Federation, we believe a new treaty could be 
concluded by the end of 2009, or more likely, early in 2010.

    13. Senator Thune. Dr. Perry and Dr. Schlesinger, if negotiations 
for the follow-on START drag on after December 5, 2009, wouldn't it be 
problematic for DOD to delay decisions about its strategic requirements 
until after negotiations for the follow-on START are concluded?
    Dr. Perry and Dr. Schlesinger. We assume that decisions on 
strategic requirements will be made during the QDR and NPR, both of 
which we anticipate will be completed this year and both of which are 
required by law to be submitted with the fiscal year 2011 budget early 
next year. While we assume both the QDR and NPR will be informed by the 
progress of ongoing arms reduction negotiations, we doubt that 
decisions on either review will be delayed pending completion of START 
follow-on negotiations. We would oppose such a delay.

    14. Senator Thune. Dr. Perry and Dr. Schlesinger, the President 
announced an objective to complete post-START negotiations by the end 
of this year, which would provide a better idea of strategic 
requirements by early next year once the QDR and NPR are finished. 
However, Congress made it pretty clear that any negotiations should be 
informed by the NPR. The National Defense Authorization Act for Fiscal 
Year 2008 mandates the review and clearly states, ``It is the sense of 
Congress that the NPR . . . should be used as a basis for establishing 
future United States arms control objectives and negotiating 
positions.'' If the NPR is supposed to inform post-START negotiations, 
then the President won't be able to complete negotiations by the end of 
this year. In your opinion, should the administration complete the NPR 
prior to post-START negotiations in accordance with the wishes of 
Congress?
    Dr. Perry and Dr. Schlesinger. We believe the administration should 
complete the NPR prior to actually signing a post-START. This is 
consistent with the legislation establishing the NPR, which requires 
evaluating the ``relationship among United States nuclear deterrence 
policy, targeting strategy, and arms control objectives.'' Given the 
importance the Commission attached to continuity in an arms control 
regime with Russia, we would not favor delaying the beginning of 
negotiations until completion of the NPR. We would expect the post-
START negotiations and the NPR to be closely coordinated. Indeed, the 
results of the NPR will depend, in part, on the degree to which Russia 
is interested in an improved strategic relationship. The post-START 
negotiations should provide insights into this issue and thus improve 
the quality of the NPR.
    [The Report ``America's Strategic Posture--The Final Report 
of the Congressional Commission on the Strategic Posture of the 
United States'' follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    [Whereupon, at 11:39 a.m., the committee adjourned.]

                                 <all>

</pre></body></html>
